<html>
<title> - THE CRISIS IN MALI: U.S. INTERESTS AND THE INTERNATIONAL RESPONSE</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
   THE CRISIS IN MALI: U.S. INTERESTS AND THE INTERNATIONAL RESPONSE

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 14, 2013

                               __________

                            Serial No. 113-3

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
78-949                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d3b4a3bc93b0a6a0a7bbb6bfa3fdb0bcbefd">[email&#160;protected]</a>  


                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Johnnie Carson, Assistant Secretary, Bureau of 
  African Affairs, U.S. Department of State......................     6
Ms. Amanda Dory, Deputy Assistant Secretary for African Affairs, 
  Office of the Secretary of Defense, U.S. Department of Defense.    19

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Johnnie Carson: Prepared statement.................     9
Ms. Amanda Dory: Prepared statement..............................    21

                                APPENDIX

Hearing notice...................................................    54
Hearing minutes..................................................    55
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey: Prepared statement...............    57
Questions submitted for the record by the Honorable Ileana Ros-
  Lehtinen, a Representative in Congress from the State of 
  Florida, and responses from:
  The Honorable Johnnie Carson...................................    59
  Ms. Amanda Dory................................................    66
Question submitted for the record by the Honorable Joseph P. 
  Kennedy III, a Representative in Congress from the Commonwealth 
  of Massachusetts, and response from the Honorable Johnnie 
  Carson.........................................................    68
Questions submitted for the record by the Honorable Ted Poe, a 
  Representative in Congress from the State of Texas, and 
  responses from:
  The Honorable Johnnie Carson...................................    73
  Ms. Amanda Dory................................................    75
Question submitted for the record by the Honorable George 
  Holding, a Representative in Congress from the State of North 
  Carolina, and response from the Honorable Johnnie Carson.......    76


   THE CRISIS IN MALI: U.S. INTERESTS AND THE INTERNATIONAL RESPONSE

                              ----------                              


                      THURSDAY, FEBRUARY 14, 2013

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:06 a.m., in 
room 2172 Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. The committee will come to order. We meet 
today to review the continuing crisis in Mali.
    After recognizing myself and the ranking member, Mr. Engel, 
for opening statements, I will then recognize the chairmen and 
ranking member of the Africa and Terrorism, Nonproliferation, 
and Trade Subcommittees for any opening remarks.
    Over the past year and a half, northern Mali, a vast desert 
landscape, has fallen to jihadists. Al-Qaeda's regional 
affiliate and others, many coming from outside the region, 
capitalized on the country's weak government in order to take 
over this region.
    Bolstered by weapons that they received from Ghadafi's 
stockpile, these forces have destabilized the entire region. 
Last month, scores of civilians--including U.S. citizens--were 
taken hostage at a remote Algerian energy facility. Those 
connected with the attack on our mission in Benghazi are 
thought to be connected to the militants in Mali. Militants in 
Somalia and northern Nigeria have received aid as well. They 
received training from these groups. As a matter of fact, this 
particular al-Qaeda franchise is the fastest growing al-Qaeda 
franchise in the world.
    But it is Mali that has paid the highest price. Extremists 
have attempted to destroy much of its rich cultural heritage. 
At the center of ancient trans-Saharan trade, Mali is home to 
priceless Arab and Islamic literature and mosques of historical 
significance. Several of the most ancient of these mosques have 
been destroyed. A culture is under attack.
    The militants sought to impose their radicalism onto 
Muslims they viewed as too liberal. Music was banned. Those who 
didn't obey faced hanging, stoning, or flogging. An already 
tough life became hell on earth.
    With Mali's capital, Bamako, in jeopardy, and its interim 
government pleading for help, the French Government took 
decisive action. Malians have welcomed French forces with 
enthusiasm--ultimate proof of the extremists' brutality.
    Six thousand French citizens live in Bamako. They had been 
used as pawns, captured by this extremist organization and held 
for ransom for some number of years as the organization used 
this as its resource for hard currency. AQIM, frankly, is a 
threat to France. It has a chapter. It has a cell in Paris. But 
it also has cells in London and other capitals around Europe. 
So Paris had an interest in intervening. But there should be no 
doubt that this militancy in northern Mali and the region 
threatens us all.
    Yet, when France sought U.S. assistance, the administration 
was tepid in answering our ally's call. It seems the 
bureaucracy slowed our pace of support. And as Secretary of 
Defense Panetta put it, ``Every time I turn around, I face a 
group of lawyers.'' This is a NATO ally fighting al-Qaeda-
linked terrorists--it shouldn't be that hard.
    While the French understandably would like to wind down 
their mission quickly, and have an abrupt turnover to United 
Nations forces that, frankly, would be a disaster. This 
militant threat remains too committed and too deadly to push 
this mission on to an ineffective, under resourced or hamstrung 
peacekeeping force at this time.
    It doesn't help that the administration has been divided. 
According to a former senior administration official, U.S. 
policy toward the region has been hindered by divisions between 
a Defense Department that wanted to confront the threat--and a 
cautious State Department that sought to instead contain it. 
We'll hear from both Departments today. We hope everyone's 
working in unison now.
    Testifying before this committee last month, then-Secretary 
Clinton noted that in this region, in her words, ``we are in 
for a struggle, but it is a necessary struggle. We cannot 
permit northern Mali to become a safe haven. We have got to 
have a better strategy.''
    Today's hearing is a step toward achieving that better 
strategy.
    I'll now turn to Ranking Member Engel for his opening 
remarks.
    Mr. Engel. Mr. Chairman, thank you for holding this very 
timely hearing on the situation in Mali. I was on C-Span this 
morning and I was asked several questions about this hearing. I 
think it's very timely and very good that we're doing this now.
    Last year, a coalition of Islamic extremists--including a 
regional affiliate of al-Qaeda--took control of northern Mali, 
an area larger than the State of Texas. Armed to the teeth with 
weapons plundered from neighboring Libya, they imposed a harsh 
form of Sharia law, amputating limbs, banning music and 
destroying priceless cultural artifacts.
    These troubling developments raised fears that northern 
Mali would become a source of instability for the entire 
region, and possibly a safe haven for terrorists plotting 
attacks on the United States and other western interests. The 
situation became even more urgent in early 2013, just this 
year, when the extremists renewed their offensive, and began 
driving south toward the capital city of Bamako.
    The international community was forced to act and France 
took the lead by launching airstrikes and putting boots on the 
ground. I'm pleased that we're now supporting France and other 
West African nations participating in this critical effort, but 
I was disturbed by early reports that we were planning to 
charge Paris for providing airlift. If we can find a way to pay 
for military flyovers at parades and professional sporting 
events, then surely we can cover the cost of aiding a close 
ally in an operation that supports U.S. national security 
interests.
    France has made it clear that it doesn't plan to keep large 
numbers of troops in Mali on a long-term basis, and we must 
work with our allies and partners in the region to figure out 
next steps in terms of promoting security. Some have suggested 
that the West African troops now deploying to Mali should form 
the nucleus of a traditional U.N. peacekeeping operation. Is 
that the right approach, since efforts to dislodge the 
extremists from northern Mali will likely require offensive 
combat operations for some time to come? Should we explore 
alternatives to a blue-helmet peacekeeping mission, such as the 
model offered by the African Union force currently operating in 
Somalia? These are all questions that I hope we can discuss 
today.
    While the immediate focus in Mali is on the military 
operation, we must recognize that this is a complex and multi-
layered conflict. The French and African successes on the 
battlefield will not be sustained if we ignore the non-military 
facets of the conflict, and if the political situation in 
Bamako is not resolved.
    Mali is now governed by an interim President that lacks 
popular legitimacy. The leader of last year's coup, Captain 
Sanogo, continues to play a role in Mali's political process. 
And it appears that elections, already postponed for a year 
until this April, will be postponed again until at least July. 
Clear steps must be taken toward having elections, Captain 
Sanogo must be marginalized, and the legitimate grievances of 
the entire population in the north must be addressed-not just 
those of the Tuareg minority.
    We must also focus on the human rights and humanitarian 
situation in Mali. Hundreds of thousands of people have been 
displaced by the current conflict and by severe drought. And 
there have also been reports of serious human rights abuses by 
the Malian military, a force that received U.S. training before 
last year's coup, and which other countries are now supporting.
    Unless these issues are addressed in a meaningful way, 
there is a risk of further radicalization in the north and 
prolonged conflict along ethnic lines, which will make it even 
more difficult to stabilize the country. As we consider the 
U.S. role in Mali and seek to increase cooperation with other 
countries in the region, it is critical that we learn the 
appropriate lessons from past efforts. In particular, I am 
interested to hear how the Departments of State and Defense 
plan to evaluate counterterrorism and governance programs in 
light of the failures we have seen in Mali, and whether you 
believe, our witnesses believe, some rebalancing of our 
assistance for the region is in order.
    Mr. Chairman, I look forward to the testimony of the 
witnesses, and once again thank the chairman for holding this 
important hearing. I yield back.
    Chairman Royce. Thank you, Mr. Engel. We're going to go now 
to Mr. Poe, who is the chairman of the Terrorism, 
Nonproliferation, and Trade Subcommittee for 3 minutes, 
followed by Mr. Sherman, the ranking member, for 3 minutes.
    Mr. Poe.
    Mr. Poe. Thank you, Mr. Chairman. Mokhtar Belmokhtar is one 
of the rebel leaders in Mali. He leads a brigade called Those 
Who Sign with Blood. It is a spinoff group of al-Qaeda in the 
Islamic Maghreb. It was his followers that attacked an Algerian 
gas plant last month in a kidnap plot that left 37 dead 
including 3 Americans. Belmokhtar is running loose somewhere in 
Mali. The French are looking for him in the mountains. Mali is 
not, as some have thought recently, or thought in the past, 
some island in the South Pacific. It is a country in Africa. 
It's even bigger than Texas. But I will say this, Mr. Chairman, 
Texas is bigger than France.
    One of those Americans killed at the gas plant was Victor 
Lovelady from my congressional district. Victor Lovelady is an 
oil and gas worker. He's from Atascocita. He works in 
Nederland. That's an oil and gas refining community and he 
worked on assignment for ENGlobal, when he was in Algeria. He's 
a family man. He waited to go over to Mali until his kids were 
older and it was important to him that he was able to provide 
an income for his kids. He had 18 days left to go before he 
came back to Texas for his daughter's birthday. He was killed. 
Life was stolen from him by those who kill Americans because 
they are Americans. He was not a diplomat. He wasn't in the 
military. He was an American and that's why he was murdered.
    Belmokhtar is a terrorist. The bandit of the desert must be 
brought to justice because really justice is what we do in this 
country. I yield back. Thank you, Mr. Chairman.
    Chairman Royce. Thank you, Mr. Poe. We're very saddened and 
very sorry for Victor's family's loss and all the other 
Americans who lost their lives there.
    We'll go now to Mr. Sherman.
    Mr. Sherman. We're engaged in a struggle against extremist 
terrorism. We've put our overwhelming effort into Iraq and 
Afghanistan. So Americans naturally would reach the conclusion 
that the vast majority of the threat is in those two places. 
The fact is, this is a worldwide struggle. In 2012, Americans 
were aware not only of Iraq and Afghanistan, but our concerns 
with Yemen, Libya, and Somalia. Now they've learned that Mali 
is not in the South Pacific.
    I fear that Americans will become aware of dozens of other 
countries that so far have escaped our common knowledge and 
that we will be introduced to these countries and their 
locations and cultures because there will be a report that this 
is a new theater in the war that we are forced to wage against 
Islamic extremism. This is a worldwide effort.
    As the ranking member demonstrated in hearings we held 
several years ago, it even involves the tri-border area of 
South America, and of course, parts of 9/11 were plotted in 
Hamburg, Germany. It's a worldwide effort and we cannot limit 
our scope to just one theater. We occupied Iraq and 
Afghanistan, but we cannot occupy every country where 
terrorists might find refuge or even support. This is going to 
last a long time. It has already lasted longer than any other 
conflict our nation has faced. In this effort, we need allies.
    Now to the extent that foreign policy is an expression of 
our psychological needs and attitudes, we would say America 
should always be number one, macho, in the lead of every 
effort. And nothing could be more disdainful than how some 
repeat the President's phrase that sometimes we lead from 
behind. But the fact is we need allies and we cannot always be 
in the lead in every theater in this conflict. In this case, we 
are behind and we should stand behind France and applaud their 
efforts in Mali. And we should know that as this effort 
continues--it will be long--that we need allies, that we cannot 
invest too much effort into any one theater, and that not only 
do we need to cooperate with allies, but there are times and 
areas where they will take the lead and we will play a 
supportive role.
    I applaud France, and I yield back.
    Chairman Royce. Thank you, Mr. Sherman. We're going to go 
to our ranking member of the Africa Subcommittee, Congresswoman 
Karen Bass.
    Ms. Bass. Thank you, Chairman Royce, and Ranking Member 
Engel. I want to thank both of you for your leadership in 
moving swiftly to hold a hearing on the troubling situation in 
Mali.
    Let me also acknowledge and thank Assistant Secretary 
Carson and Deputy Assistant Secretary Dory of Defense for your 
leadership and willingness to come before this committee.
    Ambassador Carson, this week you gave an important talk at 
the Brookings Institution, not on Mali, but on the Democratic 
Republic of the Congo. You spoke of an Africa that is more 
stable today than it has been in decades. You said democracy is 
on the move.
    In 2012 alone, we have seen peaceful transitions in power 
from countries like Ghana, Ethiopia, Malawi, and Senegal. For 
the first time in over 20 years, the Government of Somalia is 
once again recognized by the United States and in coming weeks, 
Kenyans head to the polls in an election that will be closely 
followed.
    As an important U.S. strategic partner, there is a great 
hope that Kenya's election will be peaceful, transparent, and 
nonviolent.
    I reference these examples because it is important that we 
place Mali within the context of what's taking place across the 
continent and this perspective is essential for our nation's 
Africa policy. The situation in Mali is unique and dissimilar 
to the remarkable progress taking place across the continent, 
sustained peace, stability, clear examples of democracy and 
governance. This future is possible in Mali with U.S. support 
and the support of the international community.
    The current military intervention from France provides a 
backdrop to work to help Mali define, shape, and implement the 
current political dialogue. Mali's President should be 
encouraged to consult all key political actors on the 
composition, mandate, and work of the Commission on Dialogue 
and Reconciliation and seek a political agreement on ways to 
conduct a dialogue.
    But let me be clear. The threat of AQIM and rogue fighters 
in northern Mali must not be ignored. These groups pose 
internal and external threats and must be held to account for 
their violent actions. There are reports that AQIM and others 
have recruited child soldiers, carried out executions, 
flogging, Taliban-style repression of women, and destroyed 
numerous religious shrines of cultural and religious 
importance.
    While pressure must be kept to ensure these groups are 
disbanded and not able to reconstitute themselves, it is 
important that the Government of Mali address accusations of 
human rights' abuses perpetrated by its own armed forces.
    I am pleased to learn that President Obama has moved to 
release limited Defense funds to further support airlift and 
logistical support of African and French forces. I will be 
particularly interested to hear the witnesses today comment on 
the African-led support mission to Mali as part of the broader 
ECOWAS strategy and your thoughts on the possibility of 
sustaining gains made by French intervention.
    I thank you and I look forward to your testimony. I yield 
back my time.
    Chairman Royce. Thank you, Congresswoman. Ambassador 
Johnnie Carson is the Assistant Secretary of State for African 
Affairs. Prior to his appointment, he served as the national 
intelligence officer for Africa at the National Intelligence 
Council. Ambassador Carson's distinguished 37-year career with 
the Foreign Service includes ambassadorships to Kenya, to 
Zimbabwe, and to Uganda. And it's been my privilege over the 
years to work with Ambassador Carson on many difficult issues. 
And it is good to see you and to see you again, Ambassador 
Carson and have you with us.
    We also have Ms. Amanda Dory. She serves as the Deputy 
Assistant Secretary of Defense for African Affairs in the 
Office of the Secretary of Defense. Previously, she was the 
Deputy Assistant Secretary of Defense for Strategy and the 
Assistant Secretary of Defense for Homeland Defense.
    We welcome both of our witnesses back to the committee and 
I'll share with you that without objection we'll have your full 
statements put in the record if you could focus on a 5-minute 
address here today. And members may have 5 days to submit 
statements and questions for the record as well that we would 
ask that you respond to.
    So we'll begin with Assistant Secretary Carson.

STATEMENT OF THE HONORABLE JOHNNIE CARSON, ASSISTANT SECRETARY, 
      BUREAU OF AFRICAN AFFAIRS, U.S. DEPARTMENT OF STATE

    Mr. Carson. Chairman Royce, thank you very, very much for 
that kind introduction. Thank you for your friendship. Thank 
you for your commitment to causes across Africa and your 
interest in the foreign policy of this nation. We look forward 
to working with you in the Africa Bureau in your new capacity 
as the chairman of the full committee.
    Mr. Chairman, I would also like to recognize Ranking Member 
Engel as well as the other members of the committee who are 
here with you and us this morning. I am pleased to have a 
chance to testify before you on this very important topic.
    The evolving crisis in Mali is one of the most difficult, 
complex, and urgent problems West Africa has faced in the past 
two decades. Mali's problems reflect the fragility of 
governance in the region, the lack of economic development, 
especially in northern Mali, the absence of meaningful 
opportunities for people to engage with their government, and 
the widespread desperation that exists in an unforgiving arid 
region with chronic food insecurity.
    The March 2012 coup and subsequent loss of northern Mali to 
Islamic extremists demonstrates all too clearly how quickly 
terrorists prey upon fragile states. Poor governance, weak 
democratic institutions, and a lack of development and economic 
opportunity create fertile ground for terrorism and also 
political instability.
    As the Malian Government, regional partners, and the 
international community continue to respond vigorously to the 
ongoing crisis in Mali, we must be mindful of the four 
underlying challenges Mali continues to face: The continued 
presence of al Qaida in the Islamic Maghreb, AQIM, in northern 
Mali; the restoration of democracy which is essential; the need 
to begin negotiations with northern groups especially the 
Tuareg that renounce terrorism and recognize the unity of the 
Malian state; and a significant and ongoing humanitarian and 
development crisis across the northern part of that country. 
Failure to address these four challenges, comprehensively and 
simultaneously, risks perpetuating the cycle of violence and 
insecurity that has plagued northern Mali for decades and that 
has also threatened stability across the wider Sahel.
    First, the presence of extremists in northern Mali poses a 
threat to the entire Sahel region and beyond. The French are 
disrupting and dislodging terrorist enclaves and liberating 
northern towns and populations after more than a year of 
terrorist occupation. The United States strongly supports 
France's efforts and has actively engaged to assist France in 
Mali. As of February 13, we have conducted 22 refueling 
missions which have provided about 867,000 pounds of jet fuel 
to French aircraft. The United States Air Force has also flown 
43 C-17 sorties moving French and Chadian personnel, supplies, 
and equipment into Mali and Niger. We have lifted 1,090 tons of 
equipment and supplies and over 830 passengers into the 
operational theater. We are also supporting the efforts of 
several African states who have contributed troops to AFISMA, 
the African-led International Support Mission to Mali. Subject 
to congressional notification, we intend to provide $96 million 
during Fiscal Year 2012 to support the AFISMA operation. This 
support includes training, equipment, and logistical assistance 
for the AFISMA troops.
    Although AFISMA is currently an African regional 
intervention force, we believe a transition to a U.N.-
authorized and a U.N.-led effort which brings to bear all the 
comparative advantages of a U.N.-integrated mission would be 
suitable under the right conditions to consolidate French gains 
on the ground. A transition to a U.N. peacekeeping force will 
take time, however, as French and AFISMA operations continue 
and as the U.N. develops its plans in consultation with the 
Malian Government and with its African partners, this is 
something that will take time, but it is important.
    However, Mali's problems cannot be solved by military means 
alone. The gains achieved by French and African forces on the 
battlefield in northern Mali will be short-lived if not 
accompanied by democratic elections, strengthened institutions, 
and national reconciliation. We welcome the Malian national 
assembly's January 29 unanimous approval of a political roadmap 
and timetable to restore the country's democracy.
    Now the interim Malian Government must implement the plan 
seriously and expeditiously and elections must be conducted 
free from intimidation and interference by military and 
security forces. We continue to unequivocally state that coup 
leader Captain Sanogo and the rest of the military junta 
members must remove themselves completely and permanently from 
Malian politics. We have imposed targeted sanctions on some 87 
individuals who were involved in the March coup who supported 
its authors or who continue to impede the restoration of 
democracy.
    Any continued interference in Mali's progress toward the 
restoration of democracy is unacceptable and risks the 
imposition of further sanctions from the United States, our 
partners, and international organizations. We also recognize 
that the indigenous populations of northern Mali who have a 
history of resisting foreign Islamic extremists and who have 
welcomed the arrival of French forces, have legitimate 
political, social, and economic grievances.
    Stopping northern Mali's cycle of instability will require 
a serious and sustained effort by Malian authorities, non-
extremist northern groups, regional actors and international 
partners to address the legitimate political and economic needs 
of non-extremist northern groups from Timbuktu to Gao to Kidal. 
We are encouraging the Malian Government to quickly establish 
the Commission for Negotiations as called for in Mali's 
political roadmap. We are also working closely with neighboring 
countries and the international community to lend support to 
the negotiating process. Any successful process must address 
the short-term need to restore Mali's territorial integrity 
while at the same time laying the foundation for long-term open 
dialogue needed to address legitimate political and social 
grievances and to build trust between northern populations and 
their government.
    Lastly, the United States continues to work to mitigate the 
effects of the humanitarian crisis in Mali and in Sahel which 
has resulted in chronic food insecurity in the region and has 
left more than 400,000 individuals homeless and displaced since 
the start of the fighting in Mali in March of last year.
    In Fiscal Year 2012, and to date in Fiscal Year 2013, the 
United States has provided more than $120 million in 
humanitarian assistance to address the emergency in Mali. This 
is part of more than $467 million in humanitarian assistance we 
have provided to the Sahel region in Fiscal Years 2012 and 
2013. We must remember that any military success will be 
fleeting without a democratic and creditable government that is 
responsive to the needs of all Malians. We will continue to 
work to ensure that military success can be translated into 
long-term political stability by encouraging expedited 
elections, marginalizing the military junta, holding 
accountable all perpetrators of human rights' abuses and 
violations including those who were in the Malian army and 
supporting a national reconciliation process that addresses the 
long-standing and legitimate grievances of northern populations 
including those of the Tuareg.
    By continuing to address Mali's multiple challenges 
simultaneously and comprehensively, we aim to break the cycle 
of conflict in favor of a just, lasting, and prosperous peace 
for Mali and for the region.
    Mr. Chairman, thank you. I have a longer statement that has 
been submitted for the record. And I will be happy to take 
questions.
    [The prepared statement of Mr. Carson follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Chairman Royce. Thank you very much, Ambassador Carson.
    We're going to go now to Amanda Dory, Deputy Assistant 
Secretary of Defense.

 STATEMENT OF MS. AMANDA DORY, DEPUTY ASSISTANT SECRETARY FOR 
   AFRICAN AFFAIRS, OFFICE OF THE SECRETARY OF DEFENSE, U.S. 
                     DEPARTMENT OF DEFENSE

    Ms. Dory. Thank you. Good morning, Chairman Royce, Ranking 
Member Engel, members of the committee. Thank you for your time 
this morning and the opportunity to come to speak to you about 
what the Department of Defense is doing as it pertains to the 
crisis in Mali.
    DoD is very concerned about the conflict in Mali and is 
working with international and interagency partners to counter 
extremists and restore Malian sovereignty. Since January 11th, 
France has been operating in Mali following a request from 
Bamako to counter the threat posed by al-Qaeda and affiliates 
and to help the Malians regain control of their territory, 
consistent with the U.N. Security Council Resolution 2085.
    We are supporting the French through intelligence, air 
refueling services, and airlift as Ambassador Carson has 
already mentioned. The counterterrorism effort in Mali 
complements parallel U.S. strategic objectives that relate to 
the transition back to the democracy addressing legitimate 
northern grievances and ameliorating the humanitarian situation 
there.
    France's intervention in Mali has contributed to our shared 
strategic objectives in multiple ways. These include shrinking 
AQIM safe haven, contributing to the restoration of Malian 
territorial integrity, and setting the conditions that will 
enable elections and a return to democratic governance.
    As you know, DoD engagement with the Malian armed forces is 
restricted by law and by policy as a result of the coup last 
March. There's no consideration of putting U.S. combat forces 
on the ground in Mali. However, we continue to support Mali's 
neighbors to contain and degrade shared threats. We're working 
closely with the State Department to support the African-led 
International Support Mission in Mali, or AFISMA, authorized by 
U.N. Security Council Resolution 2085.
    Africa Command and the Department of State are engaged with 
AFISMA to refine the requirements for that mission and match 
them with international contributions. AFISMA will host its 
next planning conference next week. Currently, 13 different 
African nations are deployed to Mali and supported by 22 
countries from outside the region including the United States.
    DoD's broader efforts in North and West Africa are focused 
on building the capacity of partners to counter shared threats 
and provide for security for their people. We incorporate 
military professionalism, ethics, and human rights training 
throughout our engagements and that training yields positive 
results. As you well know, intervention by the military in 
politics is anathema to our values and the importance we place 
on civilian control of the military.
    The military coup in Mali was an outgrowth of the January 
2012 rebellion and the Malian Government's response to it. This 
is the fourth such rebellion with Malian independence in 1960 
and was the result of long-standing, unresolved conflicts 
between the government in Bamako and its northern populations. 
This time, unlike previous rebellions, northern Tuaregs began 
working with hardened and armed extremists, some associated 
with AQIM. Drawing on weapons and fighters from North Africa, 
this new rebellion resulted in an armed advance on northern 
population centers, destruction of world heritage sites and the 
imposition of brutal rule.
    DoD was actively engaged in Mali prior to the coup. Part of 
the challenge we encountered was that the Malian Government was 
less focused than we on countering AQIM and significant levels 
of narcotics and other trafficking in the region. From Fiscal 
Year 2009 to 2012, DoD spent approximately $41 million in 
training and equipping a limited number of units of the Malian 
armed forces to enable them to put pressure on AQIM. However, 
rather than moving against AQIM, despite indications that the 
terrorist threat was growing, the Government of Mali focused 
primarily on the perceived threat posed by zoned Tuareg 
population. As a result, we began to shift our efforts to 
countries like Mauritania and Niger which were more focused on 
the counter terrorism mission.
    In the period following the rebellion and coup, northern 
Mali became a safe haven for AQIM and affiliates that made it 
easier for these groups to recruit supporters and connect with 
other extremists. This is part of a growing terrorist presence 
in the region that threatens U.S. citizens' interests and 
partners as we saw in Benghazi, Libya and in Amenas, Algeria.
    While we have not seen indications that AQIM is capable of 
attacking the United States directly, the group maintains the 
ability to attack western interests and to attack or kidnap 
westerners for ransom. AQIM is part of a network of violent 
extremist organizations in Africa that stretches from Egypt to 
Libya to Somalia to Nigeria and Mali. The risk of cross 
fertilization and cross pollination between affiliated groups 
is one we're very concerned about. The threat is dynamic and 
evolving and our efforts to counter it must be as well.
    As the French transition from combat operations against 
extremists to a stabilization mission, it will be critical that 
the international community help Mali and its neighbors craft a 
sustainable African-led solution and address legitimate 
grievances, maintains pressure on extremists and ensures 
protection of civilians. We should also anticipate a dynamic 
situation in the north with some groups forswearing violence to 
engage in political dialogue, while hard-core extremists 
retreat to the mountains and desert, refocusing their efforts 
on asymmetric attacks.
    In closing, DoD strongly believes in the need to address 
the parallel political, security and humanitarian crises and 
will continue to provide requested support to international and 
inter-agency efforts to do so. Thank you.
    [The prepared statement of Ms. Dory follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Chairman Royce. Thank you.
    Ambassador Carson, as I understand it, discussions are now 
underway to transition quickly into a U.N. peacekeeping 
operation and I also understand the administration is 
supportive of this move.
    As I noted in my opening statement, I am worried about 
prematurely taking that step. I think that might lead us right 
back to square one because, frankly, I don't think there's a 
peace at this point to keep in Mali. We met with the U.N. 
Secretary General yesterday. I know that he agrees with the 
Foreign Minister of Mali in terms of the situation on the 
ground that there isn't a peace to be kept at this moment.
    So why push for the U.N. peacekeeping mission at this time? 
I think we've got plenty of examples on the continent where the 
conditions for a successful peacekeeping mission did not exist, 
but were authorized anyway and we've dealt with some of the 
challenges as a result.
    Quite frankly here what we need are some battle-hardened 
soldiers like the French Foreign Legion that are engaged there 
right now and that can root out these very violent jihadists 
before we end up deploying a hamstrung peacekeeping force.
    And I would ask, have we set on the ground conditions, the 
benchmarks that must be met prior to deploying this envisioned 
peacekeeping force? And if so, what are they? And again, just 
in concept, why push for a U.N. peacekeeping mission at this 
time?
    Mr. Carson. Mr. Chairman, thank you very, very much for an 
excellent question. As I stated in my testimony, we believe 
that in time that the AFISMA force should transition to a U.N. 
peacekeeping force. We do not want to do that hastily. We don't 
want to do it prematurely. We want to do it at a point at which 
it is timely, appropriate, and likely to be successful. We want 
to do it in conjunction with any decisions by the French in 
their departure, any decisions by the Africans in what they are 
prepared and want to do, as well as conditions which exist on 
the ground. But planning is important to help us get a sense of 
what may be required so that we are not surprised in the future 
by a sudden French withdrawal and a collection of African 
forces who might be better managed and organized under a U.N. 
peacekeeping regime.
    We think that over time the U.N. does have peacekeeping 
norms and standards which would be applicable and useful in 
Mali.
    I would add one other thing, Mr. Chairman, and that is that 
there's going to be an on-going need for a counterterrorism 
operation in northern Mali. And that probably will always 
reside in the hands of the French and not in the hands of the 
United Nations.
    Chairman Royce. I just wanted to raise our concerns because 
as we read about the push for the quick transition, you and I, 
I think, concur on some of the downsides if we make that too 
quick.
    Let me go to a question to Ms. Dory because in my opening 
statement I raised this issue that we were a bit slow in our 
response to our French ally. We've got multiple news outlets 
around the world that reported week after week on this story 
and we're exactly a month now, I think, into when the French 
began the operation. But it's only this week that we see that 
the administration responded affirmatively on some of the 
provisions of assistance to the French such as the draw-down 
authority for refueling and airlift.
    As I understand it, the French put in the request as soon 
as the mission started. So if we were to contrast this and this 
is what's gleaned from the reporting on this, if we were to 
compare it to the assistance to NATO allies with Libya, those 
requests for assistance took days. This takes a month. What's 
the hold up here? And could Congress help speed up this 
process? Is there something we could do affirmatively to let 
you know that yes, we do want to support our ally in this 
mission?
    Ms. Dory. Thank you, Congressman. Secretary Panetta made 
very clear, as soon as we began to receive French requests, 
that we would be responsive to those as quickly as feasible as 
befitting allies. The first French request related to 
intelligence support, ISR coverage to airlift and to refueling. 
And each of those was met as quickly as feasible. Some of them 
came almost instantly and the others followed within days.
    The reference to paperwork this week, signed by the 
President that approved drawdown authority has to do simply 
with reimbursement, and the actual services have been provided 
since much earlier on. The intelligence, all of the channels 
available to us were fully opened as soon as the French made 
that request consistent with sharing guidelines that we have in 
place. That happened instantly in Paris, in Bamako, and in 
Senegal. So we were in a position to be very swiftly sharing 
intelligence. The Department of Defense quickly provided----
    Chairman Royce. I don't disagree with you on the 
intelligence front.
    Ms. Dory. Right.
    Chairman Royce. But you know the issue. You know the issue 
with respect to support for the French operation and you know 
some of the consternation that is created.
    Ms. Dory. In terms of the priorities that we were 
presented, the first priority was intelligence and ISR support 
and that is what--we worked on the priorities that we received. 
The airlift followed second and has been very wholesome. 
Ambassador Carson gave the statistics to you. We've moved a 
mechanized battalion at this point from France into theater and 
are now working on a company that will provide IED support. The 
refueling services came third. Each of these was subject to 
legal review. That worked relatively smoothly and swiftly. Is 
never as quick as one might like when you're on the waiting 
end, but it did move. And the French have expressed their 
gratitude and their support in multiple different conversations 
with DoD officials, with State Department officials, and with 
the White House. So we believe we're in good shape in terms of 
our support to the French and our appreciation for what they 
are doing in Mali in terms of our shared interest there.
    Chairman Royce. I appreciate the attention to this because 
obviously, the Secretary of Defense Panetta was quite concerned 
about the length of time and the fact that, as he said, every 
time he turned around he was facing a group of lawyers that 
were holding up the process. So we appreciate the attention to 
this.
    My time has expired. I'm going to go to the ranking member, 
Mr. Engel. Thank you.
    Mr. Engel. Thank you, Mr. Chairman. I'd like to ask both of 
you, we've spent tens of millions of dollars, almost 10 years 
of training African troops in Western Africa and particularly 
in Mali which I think obviously is a good idea, but it seemed 
to fall apart in the face of hostile forces. So how we're 
looking to increase security assistance to Mali's neighboring 
countries to deal with the spillover effects.
    Could you let us know what steps your two Departments are 
taking to evaluate your security assistance programs in light 
of some of the failures we've seen in Mali?
    Mr. Carson. Congressman Engel, again, thank you for the 
question. We are constantly reviewing and reevaluating our 
programs and our security assistance programs and our 
relationships with governments. And we believe that much of the 
money that we have spent in the Sahel region has been put to 
good effect.
    There is no question that Mali is a political and military 
disappointment. Its military failed to perform on the 
battlefield and then it turned around and undertook a military 
coup dislodging a democratic government. But I would also take 
a look at the West African response to this crisis where we 
have had over a dozen African states, most of them associated 
with ECOWAS, all of them recipients of U.S. support and 
military assistance, responding with alacrity to a crisis in a 
neighboring state.
    The response from the government, a democratic government 
and a military in Niger, trained by the U.S. has been very 
positive. We've seen the same kind of response from governments 
in Burkina Faso. We've seen responses from Benin, Togo, 
Nigeria, Chad, and Mauritania; all of whom have received great 
military assistance from us and have benefitted from our 
programs. And in fact, they are responding in the way that we 
would want them to do, helping a neighboring state in trouble, 
dealing with a problem that is both national and sub-regional, 
and doing it in a collaborative fashion among themselves while 
also reaching out to the international community and the A.U.
    Yes, Mali is in trouble. Yes, they did not perform well, 
but the others in ECOWAS have stepped up to the plate and 
demonstrated that what we put in to their hands is doing 
precisely what we want it to do and that's to respond to a 
crisis.
    Mr. Engel. Thank you. Ms. Dory?
    Ms. Dory. Thank you. I think I would simply add to that two 
different dimensions. In terms of our overall strategy of 
building partnership capacity, when we're working with 
partners, we focus on the capacity, but we also need to focus 
on the will and the shared sense of security objectives. And as 
we look back with Mali, I referenced this in my statement, we 
focus in terms of our training on increasing their capabilities 
with select units. But over time, there was a divergence in 
terms of their perception of the security environment and the 
threat environment and our own. So I think one of the lessons 
learned as we move forward is in terms of the partners with 
whom we're engaging is the shared sense of will there alongside 
the development of capacity and capability.
    The second lesson I would point to is our view that in 
addition to tactical and operational engagements, it's 
critically important to engage at an institutional level as 
well to ensure that the strategic approach that the ethics and 
the professionalism are there throughout in an institution and 
not simply with a unit that you may be engaging with. This is 
something our British and French colleagues do in terms of 
having advisors that are on site in different security 
institutions, ministries, and it's something that we're 
beginning to do at DoD outside the Afghanistan theater as well, 
and we're looking to do that in the African context.
    Mr. Engel. Let me just very quickly, because I know my time 
is up, ask you if you could briefly tell us what your current 
evaluation is of the threat that AQIM and the other jihadi 
groups, which are active in northern Mali--what threats do they 
pose to the U.S. homeland and our interests abroad?
    Ms. Dory. I mentioned briefly in my statement--in a 
different setting we could go into much more detail, but I 
think it suffices to say they do not at this point pose a 
direct threat to the U.S. homeland or territory. They certainly 
pose a threat to American citizens overseas, U.S. interests in 
the region, western interests, and African interests in the 
region.
    Mr. Engel. Thank you. Thank you, Mr. Chairman.
    Chairman Royce. We'll go down to Ileana Ros-Lehtinen.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman. Thank 
you for convening this meeting. I have two questions. One is on 
funding for the Trans-Sahara Counterterrorism Partnership, and 
the other one has to do with the AFRICOM; and let me lead up to 
those.
    The situation in Mali, as we have seen, does not exist in a 
vacuum. When analyzing the crisis in Mali, we've got to examine 
the spillover effect emanating from northern Africa, from the 
Maghreb to the Sahel region to Egypt, Algeria, Libya, and 
beyond. Last month, former Secretary Clinton testified in front 
of the Senate and said there is no doubt that the Algerian 
terrorists had weapons from Libya. There is no doubt that the 
remnants of AQIM in Mali had weapons from Libya. So for years, 
radical Islamists and extremist organizations have been 
aggressively expanding their operations in Africa.
    Since 2001, we have witnessed a dramatic increase in 
attacks by al-Qaeda and its affiliates all across the 
continent, most notably in Maghreb and the Sahel regions. The 
recent attacks on our consulate and Embassies in Libya, 
Tunisia, and Egypt underscore this harsh reality. If al-Qaeda 
becomes entrenched in Mali, the country that has been one of 
the most susceptible to al-Qaeda's influence, it will 
eventually create a safe haven there, and this may cement the 
opportunity for terrorist organizations to further organize 
globally and have an even stronger trans-national reach.
    How did we get there? Did we not see this threat coming? 
And has the administration been naive to these growing threats?
    [Response follows:]
Written Response Received from the Honorable Johnnie Carson to Question 
     Asked During the Hearing by the Honorable Ileana Ros-Lehtinen
    For several years, Al-Qaeda in the Islamic Maghreb (AQIM) used 
camps in the mountainous regions of northern Mali to support attacks 
against Algeria and launch kidnap for ransom (KFR) operations in the 
northern Sahel. Recognizing that Mali and its neighbors did not have 
the adequate capacity to prevent AQIM from exploiting this large swath 
of remote territory or protect their porous borders, the United States 
took lessons from the earlier Pan Sahel Initiative and launched the 
Trans-Sahara Counterterrorism Partnership (TSCTP) in 2006 to assist 
countries in the Sahel and North Africa, including Mali and Algeria, to 
improve their long-term defenses against the evolving threat. Long-term 
success of counterterrorism (CT) efforts in the region depends on the 
ability of the countries in the region to take responsibility for their 
own defenses, and consequently our programming focuses on building 
host-nation capacity to counter violent threats. The United States, 
France, and other countries focused on multi-year, multi-sector 
initiatives to enable Mali and its neighbors to improve their CT 
capacities. The approach reflected a common understanding that short-
term CT approaches could not address the vulnerabilities that AQIM and 
other groups attempt to exploit.
    The TSCTP approach has proven successful in Mauritania, Niger, 
Chad, and Burkina Faso, where willing CT partners have intensified 
their efforts to confront the AQIM threat over the years. In 
Mauritania, for example, U.S. assistance has enabled military and law 
enforcement (police and Gendarmerie) to deploy and sustain units in the 
extremely austere frontier. Mauritania has also deployed U.S.-supplied 
aircraft to support its operations along the Malian border and is using 
U.S. assistance to improve the infrastructure of forward operating 
areas along the same border. Similarly, Niger has benefited from U.S. 
training and equipment to bolster its efforts to protect in borders and 
interdict terrorists attempting transit through its territory.
    By contrast, Malian security forces, including units exposed to 
U.S. training, failed to adequately respond to AQIM's use of northern 
Mali as a safe haven. The flow of Libyan arms and fighters into 
northern Mali in the security vacuum after the 2011 Libyan revolution 
exacerbated this situation by significantly bolstering the capabilities 
on AQIM and other groups. The January 2012 rebellion in northern Mali 
overwhelmed the ability of Malian security forces to respond, and the 
military coup in March 2012 further spoiled the political environment 
and impeded the government's ability to effectively respond to the 
crisis in northern Mali. The performance of Mali's security forces is 
disappointing and demonstrated its institutions' fragility. 
Notwithstanding Mali's performance, our assistance to regional partners 
in their long-term defenses against AQIM and other extremists is 
consistent with U.S. national security objectives.

    Ms. Ros-Lehtinen. On numerous occasions, the President has 
gone so far as to say that al-Qaeda has been ``decimated and 
that it is on the path to defeat.'' These sentiments illustrate 
that the administration has avoided the grim reality of the 
situation. Al-Qaeda is like the mythical hydra. It's a beast 
with many heads, which if you cut off one head, two grow in its 
place. Weak governance has left these nations vulnerable to 
infiltration by radical groups like AQIM, Boko Haram, and other 
U.S.-designated terrorist organizations that are seeking refuge 
from the increased pressure that we're putting to bear in the 
Middle East.
    Have the recent tragic events in Benghazi and Mali and 
Algeria finally gotten the attention of the administration? And 
for the many criticisms that the George W. Bush administration 
has gotten, he started a key counterterrorism initiative to 
fight this expansion, and it's the Trans-Sahara 
Counterterrorism Partnership. It was created with the purpose 
of addressing these rapidly-evolving threats in Sahel and 
Maghreb regions by supporting partner countries in an effort to 
eliminate the terrorist organizations from getting a foothold 
in Africa. And although this important program has had 
successes, it comes as a surprise that combined funding for 
this partnership administered through State and USAID has 
decreased every year since 2009.
    So my question is: How would you assess the efficacy of the 
Trans-Sahara counterterrorism partnership today? And given that 
the situation facing our frontline posts, our personnel, our 
interests in the region, the situation is not new. Why were 
programs like this partnership reduced on an annual basis under 
the administration when the threats were so apparent?
    And lastly, on U.S. Africa Command, AFRICOM, this is 
another key partner in assisting our allies in the region and 
leading our counterterrorism efforts. How can we best equip 
AFRICOM to play a more constructive role in fighting these 
threats from AQIM and other extremist groups? And do the 
African nations have the willingness and the capacity to assist 
and support U.S. security objectives in the region?
    Thank you.
    Mr. Carson. Congresswoman Ros-Lehtinen, let me take the 
first question. First of all, we believe that the Trans-Sahel 
counterterrorism program is important. The administration 
strongly supports it and endorses it. The very existence of 
this program for the last decade is a reflection of the fact 
that we did see terrorism emerging as a potential threat in the 
region and therefore we're spending money in some ten different 
African countries across the Sahel in order to help them to 
enhance and boost their counterterrorism capacity, their border 
security, and their militaries.
    So the program, its very existence for more than a decade 
now, is a reflection of the fact that we were looking ahead, 
that we saw problems on the horizon. The fact that it continues 
to exist is a recognition of this.
    Ms. Ros-Lehtinen. I don't want to take up more of the time 
I'm allotted. If you could give me those answers in written 
form, I would appreciate it. Thank you, sir.
    Mr. Carson. I will.
    Ms. Ros-Lehtinen. Thank you, ma'am.
    Chairman Royce. Will go now to Mr. Faleomavaega.
    Mr. Faleomavaega. Thank you, Mr. Chairman. I certainly want 
to commend you and the ranking member for calling this 
important hearing before the committee. And I do want to 
personally again offer my strongest commendation to Ambassador 
Carson in the many years of tremendous service that he has 
given for our country, and Secretary Dory as well.
    I also wanted to thank my good friend and colleague from 
Texas in giving a great lesson in geography to our colleagues 
and to remind them that Mali is not a little island somewhere 
in the South Pacific. In fact, a couple of years ago, I was 
introduced on the floor of the House by one of our colleagues 
saying that I was from Somalia. I can fully appreciate and 
understand the concerns of my friend from Texas about sometimes 
the members of this committee and the Congress need to have a 
little better understanding of the geography of the regions of 
the countries and what we're talking about.
    I do want to warn my good friend from Texas that there was 
a little joke that we from the Pacific have learned. The 
gentleman from Alaska was warning the gentleman from Texas to 
quit bragging about Texas being the largest state of the Union 
because when they divide Alaska in two, Texas will be only the 
third largest state in the Union. At least that's what I 
understand it to mean.
    Secretary Carson and Secretary Dory, thank you so much for 
your testimony and trying to help members of the committee to 
understand better the crisis that we're now faced with in Mali.
    There are two things that I wanted to certainly seek your 
understanding and clarification on. I know we keep throwing 
this word al-Qaeda all over the place as if al-Qaeda is only 
one little bunch. It's my understanding that there's basically 
two al-Qaeda functioning groups going on. And in Mali, one is 
the al-Qaeda Maghreb group and the al-Qaeda Osama bin Laden.
    And I wanted to ask Secretary Carson if you can make those 
distinctions, because there's a little suggestion that I might 
offer to my colleagues of the complexity of the situation among 
the African countries. It's not as simple as we think it to be. 
And always the danger of thinking that we know more or we know 
what we should do to help these countries with historical--
things that we know nothing about hardly.
    [Response follows:]
Written Response Received from the Honorable Johnnie Carson to Question 
    Asked During the Hearing by the Honorable Eni F.H. Faleomavaega
    Al-Qa'ida in the Islamic Maghreb (AQIM) is an affiliate of al-
Qa'ida Core. Al-Qa'ida Core most likely does not have any operatives in 
Mali at this time and has never operated there as a group. AQIM has its 
own goals and reasons to pursue extremism based on its history as an 
Algerian-based terrorist group. While AQIM officially affiliated (or 
``publicly aligned'') with AQ in 2006, AQIM's activities are often not 
in line with AQ guidance. AQIM does not represent a threat to the U.S. 
Homeland or U.S. Vital National Interests at this time.

    Mr. Faleomavaega. Secretary Carson can correct me that 
you're talking about a society that historically has had tribal 
rivalries for centuries. This is true in other countries, not 
just in Africa, but in other regions as well. So now we've got 
this situation developing whether it's in the Tuareg ethnic 
group, that seems to be the dominant group that's having all 
these difficulties and trying to set up this democratic 
Government of Mali. But if I could ask Secretary Carson, is 
there a distinction between these two al-Qaeda functions or 
groups right now in Mali?
    Mr. Carson. I'll be prepared to provide you with a longer 
answer. Let me just say this. Mali is comprised of a population 
which is probably 98 percent Muslim and they have always been, 
for the most part, moderate Muslims. The AQIM that we know of 
is an extension of the GSPC from Algeria. Over the last decade 
and a half, as the Algerians have been successful in 
eliminating the jihadist and terrorist threat in the urban 
areas and in some of the rural areas, they have pushed jihadist 
Salafists down into the barren expanses of northern Mali.
    That AQIM leadership today, including Mokhtar Belmokhtar 
who Congressman Poe pointed out, is not a Malian. Mokhtar 
Belmokhtar is an Algerian and much of the leadership of AQIM 
which operates in northern Mali is, in fact, Algerian and 
Mauritanian. What we have tried to do in defining what the 
situation is is to not allow the long-standing, historical, and 
legitimate, political and social grievances of the Tuareg, in 
particular, to be hooked up to the jihadist Salafist and 
Islamist agenda of AQIM coming in from the north.
    Mr. Faleomavaega. I'm sorry, Secretary Carson, my time is 
up. I will appreciate getting a submission in writing. Thank 
you, Mr. Chairman.
    [Response follows:]
Written Response Received from the Honorable Johnnie Carson to Question 
    Asked During the Hearing by the Honorable Eni F.H. Faleomavaega
    In 2012, elements of the Tuareg ethnic group, fueled by arms 
proliferation and returning mercenary fighters from the Libyan 
Revolution, launched a fourth Tuareg Rebellion with the avowed aim of 
establishing independence for northern Mali, underscoring their 
perceived marginalization and lack of development from the central 
government in Bamako. Early fighting with Malian security forces was 
not decisive, and, in the previous three revolts, the Tuareg and 
Malians had fought each other to stalemate and worked out their 
differences in negotiation. However, this time AQIM and the more 
extremist Tuareg-based Ansar al-Dine group provided more fighters, 
including returning mercenary fighters with arms from Libya. This 
tipped the balance in favor of the extremists who marginalized or 
recruited with money the other Tuareg factions, seizing the rebellion 
as their own. Malian security forces faced four shocks: the initial 
Tuareg rebellion; the addition of extremist forces to that rebellion 
that made it more effective; the lack of will power and capabilities on 
the part of the Malian government to effectively counter the rebellion; 
and the subsequent coup d'etat by disgruntled elements of the Malian 
military.
    The Tuareg, in fact, are not the most populous group in northern 
Mali and there are other major ethnic groups there to contend with. The 
non-extremist Tuareg have given up on their demand for independence and 
are prepared to negotiate with the Malian government, and at least one 
group claims to have severed any ties with extremist groups. AQIM, 
MUJAO and what still exists of the more extremist Ansar al-Dine are 
under severe pressure by the French and African intervention and are 
beginning to disaggregate and become much less effective.

    Chairman Royce. We go now to Mr. Smith.
    Mr. Smith. Mr. Chairman, thank you for convening this very 
important and timely hearing. Welcome, Bill Delahunt, who just 
popped into the room, former Member of the House and friend.
    I regret missing the opening statements, Mr. Chairman. I 
would ask that my full statement be made a part of the record.
    Chairman Royce. Without objection.
    Mr. Smith. I was co-chairing, along with Steve Israel, a 
meeting on adoptions from Russia, Americans adopting, with 
Sergey Kislyak, the Ambassador, and it went over, so I 
apologize.
    Ms. Dory, let me ask you exactly what is the United States 
Government doing to implement the humanitarian and human rights 
elements of Resolution 2085 so that forces in Mali are trained 
in and are compliant with internationally human rights law 
including and especially sex trafficking training? And can we 
stem, in your opinion, the ethnic and religious reprisals by 
the forces that we support?
    Ms. Dory. Congressman, at this point, Department of Defense 
is not engaging at all with the Malian armed forces since the 
coup that took place last year. So through law and by policy 
the cutoff of security assistance to the Malian armed forces 
means that we are not actively engaged in training with them at 
the present time.
    Mr. Smith. That doesn't apply to AFISMA though.
    Ms. Dory. Exactly, it does not apply at all to AFISMA.
    Mr. Smith. So what are we doing especially on the sex 
trafficking? Because we know with DR Congo and in other 
deployments in the past, there have been huge problems of 
exploitation, particularly of women and children.
    Ms. Dory. I think Ambassador Carson will want to speak to 
this as well, but what is currently happening with AFISMA is a 
process with the State Department and Department of Defense 
evaluating the different troop-contributing countries to see 
what their training needs are, what their equipment needs are 
and then to determine, along with the other elements of the 
international community who will train which forces. Those 
forces that will be trained by the U.S. will, of course, have 
the requisite ethics and human rights training included 
alongside their operational training. But that training has not 
yet begun.
    Mr. Smith. So there won't be uniformity. Particularly on 
the sex trafficking piece, there has been terrible, terrible 
abuse, as you know, and there has been a diminution of 
enforcement by the U.N. itself. I know this is going to be an 
African-led force when it comes to investigating allegations 
that had been made on other deployments.
    Ms. Dory. One of the other--we spoke earlier before your 
arrival about a potential U.N. operation operating in Mali at 
the appropriate time. And one of the benefits of that will be 
having the full complement of human rights observers, the 
political dimensions that the U.N. operation would bring to 
bear alongside a peacekeeping operation. That's one of the 
reasons why we believe that that shift at the appropriate time 
from AFISMA--currently, Mali and France operating together, 
you'll add in the AFISMA forces as they're deployed and then 
employed into different locations in Mali and then eventually a 
U.N. peacekeeping.
    Mr. Smith. I am always concerned it's a matter of emphasis. 
I believe it will be done, but how robustly it will be done is 
always the question.
    Let me ask you, Ambassador Carson, in your testimony to my 
subcommittee on June 29 on Mali, you said, ``We are 
coordinating closely with our mission in the United Nations to 
press the African Union and ECOWAS to define a clear mission 
for their proposed ECOWAS peacekeeping mission in Mali. That 
said,'' you testified, ``we think an ECOWAS mission to 
militarily retake the north is ill-advised and not feasible.''
    Is that still your belief that it's ill-advised and not 
feasible? What will be the mission of AFISMA peacekeeping 
force?
    Mr. Carson. Let me----
    Mr. Smith. And if you could touch on the rules of 
engagement very briefly, too.
    Mr. Carson. Yes. Let me do and I'll be very brief. First of 
all, we take seriously our responsibilities for implementing 
U.S. law with respect to human rights violations. The Leahy 
amendment, which is a part of that law, requires us to vet and 
approve any units that we supply, train, and support to make 
sure that they have clean human rights records. We are 
attentive to charges and allegations of these units. We do not 
want to be associated with or endorse any military units that 
have human rights violations.
    Most of the units deployed now moved in before there was 
any training and support, but units that we support moving in 
will be Leahy vetted and if, in fact, there are any violations, 
including sexual trafficking by these units, we will cut off 
our assistance to them, and we will expose them and certainly 
bring it up with government. So it is important to us. Leahy 
vetting is critical.
    The second thing that I would say is that I'm not sure that 
I said ill advisable in those stark terms. What I--and I'll be 
glad to look at it, Congressman Smith. What I was saying is 
what we thought at the time that before ECOWAS moved in, we 
thought it should be an African-led force. We thought it should 
be well planned. We thought it should be well managed and 
integrated and that it also should be well resourced.
    What we did not want to do is to have an African force move 
in prematurely and be defeated by the very enemy they were 
trying to fight.
    [Additional information follows:]
 Additional Information Received in Writing from the Honorable Johnnie 
     Carson to Question Asked During the Hearing by the Honorable 
                          Christopher H. Smith
    The intervention by the French has changed the state of play on the 
ground in Mali and all of our previous planning assumptions about the 
role of an ECOWAS force have been overtaken by recent events. The 
French are conducting offensive air and ground operations to clear 
northern population centers of armed terrorist groups' control. After 
the French retake of the northern cities, Malian and the ECOWAS-led 
African-led International Support Mission to Mali (AFISMA) forces are 
falling in behind the French by holding the recovered northern cities 
and maintaining security. Because the timeline for deploying ECOWAS 
troops to Mali was significantly abbreviated in response to the 
intervention, some of the currently deployed troops lack adequate 
training and equipment. State, largely through our African Contingency 
Operations and Training Assistance (ACOTA) program, has accelerated the 
timeline for training troop contributing countries and will be 
providing training and equipment to the AFISMA troops that will begin 
to rotate into the mission this summer. The State Department is 
providing logistics support and equipment to the AFISMA forces. The 
European Union has begun deployment of its training teams to work with 
the Malian forces.
    At the time of the June 29 testimony, there was no plan for a 
French intervention and ECOWAS had not developed a sufficiently planned 
and financed concept of operations for a peacekeeping mission in Mali. 
Because there was no well-defined plan at that time, an ECOWAS mission 
to militarily retake the north was ill-advised and not feasible. We did 
not want an African force to move in prematurely and be unable to 
succeed. Since then, the situation on the ground has changed, and it 
continues to evolve. Now that France and its African partners have 
militarily retaken key population centers in the north, ECOWAS can play 
a role in stabilizing Mali through peacekeeping and not offensive 
operations. U.S. planners are currently in Bamako working with ECOWAS 
and the AU to develop a new concept of operations that will address the 
role of ECOWAS in the changed security environment in Mali. The French 
have stated that they intend to remain in Mali until AFISMA has 
demonstrated effective command and control, established logistics 
support, and is deployed throughout the entire country.

    Chairman Royce. Thank you, Mr. Ambassador. We're going to 
go to Mr. Sherman.
    Mr. Sherman. Ambassador Carson, I want to thank you for 
coming, along with your colleague, to tell us about Mali. I 
want to drift a little bit away from that and ask you to kind 
of lay out what other countries in the Sahel and West Africa 
are of security concern to the United States with the global 
effort against Islamist extremists and terrorism. What other 
countries might you be here testifying, along with Ms. Dory, 
about in the next year or two? And focus on West Africa and 
Sahel.
    Mr. Carson. Congressman Sherman, I hope I'm not here 
testifying about any of them, and I don't have a crystal ball, 
but let me just say that in my testimony I mention that there 
are criteria that make states in the region susceptible to 
terrorism: Weak governance, poor development, no borders, or 
very poor borders, and communities that feel that they have 
legitimate grievances that are not being responded to by 
central government authorities.
    But I would say that there is a growing awareness on the 
part of governments across the Sahel region that AQIM does 
constitute a serious threat, that they need to work with one 
another to combat this threat, and that they also need to 
respond to the economic and social needs of their people in a 
way that ensures that terrorist groups cannot make them 
vulnerable.
    Mr. Sherman. There are many West African Sahel countries 
that want to thank you for not naming them individually in your 
response to my question.
    Ms. Dory, it has been widely reported that the U.S. is 
eager to build a drone base in Niger. To the extent you can 
tell us in an open hearing, has that base begun construction or 
even been completed? Are drones being launched from that base 
and how many U.S. personnel are there?
    Ms. Dory. To start, we do not have a drone base in Niger, 
so hopefully that is helpful. What I can say is that 
commensurate with the growing threat in the region, Africa 
Command, as well as the intelligence community is very 
interested in increasing resources that are focusing on the 
region to improve our understanding of what is happening there 
and we are seeing a growth in intelligence resources of all 
kinds to include ISR.
    What you're referring to in part, I believe, is news that 
stemmed from the recent conclusion of a status of forces 
agreement with the Government of Niger. This is the type of 
foundational agreement that we pursue in many different 
countries in Africa that have regular relationships with Africa 
Command for purposes of exercises and other activities. So that 
was what made it into the news and then an extrapolation about 
a drone base from there. But we are certainly----
    Mr. Sherman. A news report that was an exaggeration. 
Unusual.
    Ms. Dory. It does happen.
    Mr. Sherman. Ambassador Carson, resolving the on-going 
conflict in northern Mali is obviously critical to maintaining 
the stability and integrity of the Malian state, along with 
setting a date for elections, the roadmap for transition, 
adopted by Mali's Parliament on January 30 that lays out a need 
for opening negotiations to separatists in the north. What is 
your assessment of this roadmap and does it provide a good 
path, a clear path toward reconciliation and unity?
    Mr. Carson. I think the roadmap is a significant and 
important document. It demonstrates and underscores a consensus 
of the Malian political class and the Parliament to stand 
behind a rapid transition to elections and a new democratic 
dispensation.
    I think that it is incumbent upon all of us in the 
international community to encourage as strongly as possible 
the Malian Government to follow this roadmap and live up to the 
time table that's outlined there.
    Chairman Royce. We'll go to Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman, and 
Ambassador Carson, I want to thank you for your many years of 
service and your great contributions to our country over your 
life, and those of us who know about it really respect you, and 
you are providing us good information today as well and thanks 
for that.
    I'd like to get a little bit of understanding about this 
conflict and about why we have to be involved or even France 
has to be involved. Is this essentially an ethnic or tribal 
conflict in this country? Do we have black Africans in the 
south and Arabic Africans in the north? Is that the nature of 
this conflict?
    Mr. Carson. Congressman, the situation is a very complex 
one. There are historical disagreements that divide the Tuareg, 
in particular, who were mostly northern Berber and Arab 
descendants from those who live in the southern part of the 
country. The Tuaregs were a political and security problem for 
the French long before independence in----
    Mr. Rohrabacher. Ambassador Carson, it sounds like this was 
a real caldron before al-Qaeda actually ever existed and 
perhaps we are superimposing today's definitions on to an 
ancient conflict. I will tell you, the Pushtans in Afghanistan 
have been at war with the various ethnic groups in Afghanistan 
forever and we are finding it very difficult to get out of that 
country when we got in after we are attacked. It seems to me 
that--are you confident that the West can come into a situation 
like this that sounds like it has historic, ethnic, and tribal 
roots and actually make a difference?
    Mr. Carson. Let me say, as I've tried to say in my 
testimony and in other comments, there are several things 
happening simultaneously here. This is a very complex problem. 
I do not want to in any way diminish the threat and concern 
that we should all have, particularly the French in the region, 
about AQIM.
    It is also true that the issues of the Tuareg are decades 
and decades old and they certainly predate the arrival of AQIM. 
But AQIM and its existence in the region is a fact and they 
have to be dealt with. I think it is important to make sure 
that we don't conflate the historical and legitimate grievances 
of communities in the north with the ideological and jihadists 
who are part of AQIM.
    And I would say, if I could, that my colleague said that we 
may not have an immediate threat to our own homeland, but the 
region and the French do have serious concerns.
    Mr. Rohrabacher. Let me note, Mr. Ambassador, I remember 
hearing stories about Khartoum and Sudan and sending down 
Colonel Gordon during the last century and there have been 
these upheavals and these conflicts between southern central 
black Africans and the Arabic Africans in the north have been 
going on for centuries. It seems to me that the United States 
does not need to get itself involved in trying to create 
stability which seems like almost an impossible task because 
this instability has been going on for centuries. I'm as upset 
and concerned about radical Islam and their association with 
terrorism as anyone else, but simply to have them superimpose 
themselves in a conflict like this, we could be just getting 
involved in a quagmire that we will never get out of. I mean 
Afghanistan is complicated enough.
    Mr. Carson. Congressman, I don't think that we are engaged, 
involved directly ourselves. We are assisting the French and we 
are assisting the Africans. But we have no intentions of 
putting boots on the ground or engaging our forces militarily 
there.
    Mr. Rohrabacher. My time has run out, but let me just say 
that we are not saying boots on the ground, but it sounds like 
to me we're trying to be the king makers. We're trying to be 
the decision makers and in the end everyone is going to end up 
hating us in no-win situations like this. Thank you very much 
again, Ambassador Carson, for your insights and we deeply 
appreciate it.
    Chairman Royce. Karen Bass?
    Ms. Bass. I'm oh so tempted to respond to my colleague, but 
I think I'll do that after the hearing. Let me thank you for 
your testimony again.
    I wanted to ask a few things leading up to talking about 
the elections, but I'm wondering and the chairman mentioned 
also about our delay in getting involved after the French. I'm 
wondering whether Section 7008 that prohibits the State 
Department and USAID from participating because of the coup and 
until there is an election, if that, one, was a contributing 
factor to any delay, and if there's any change that should be 
made in that section. Two, I know that elections are scheduled 
for June, and I would hate to see them postponed, but on the 
other hand I'm very concerned as to whether or not Mali is 
going to be ready for elections. And if there's efforts to push 
them prematurely, I want to know what you know about the 
process, what's going on, who might be the candidates beyond 
the current President, what we might be doing to support their 
efforts? And then if there can be credible inclusive elections, 
especially considering that over 300,000 persons are displaced 
and are we providing any resources for the election?
    Mr. Carson. Congresswoman Bass, again, thank you very much 
for your question and also for your interest and support on the 
Africa issues that we face.
    First of all, I would just underscore all the points that 
my colleague, Deputy Assistant Secretary Amanda Dory made with 
respect to whether there was delay or not. I think that we 
tried to respond as expeditiously and in serial fashion to the 
French requests as they came in, and we certainly support and 
are assisting them to the best of our ability.
    The legislation that you referred to requires the U.S. 
Government to cut off assistance to any government that comes 
to power as a result of a military coup d'etat, and so as a 
result of the March 23 coup in Mali, we did cut off all but 
emergency help and food assistance.
    Ms. Bass. Right.
    Mr. Carson. I don't think that the legislation needs to be 
changed. I think it is a strong affirmation of the U.S. support 
for democracy and against coup d'etat. So I would say it has 
not had an impact on our relationship in terms of providing 
support to the French and others.
    That legislation does have a carve out that allows us to 
support elections. And we do have the capacity through State 
Department and USAID to help the Malian Government with 
technical and financial support to run elections as they have 
outlined in their roadmap. And it is our intention to join 
others in the international community in providing them with 
support probably through IFES, probably through NDI or IRI here 
in the United States. So we will go ahead to do that.
    I believe that it is possible for the Malian Government to 
hold inclusive, credible, free, and transparent elections by 
July 31, which is the date that is outlined in the timetable 
and the roadmap.
    As I said before, I think it's incumbent upon the regional 
states and ECOWAS for the international community, for the 
U.S., France, Britain, and the European Union to push as hard 
as possible to make these elections----
    Ms. Bass. Since that's so soon, do you know anything about 
the process? I mean I am assuming, but not sure that the 
current President might run. Are there any other candidates? I 
mean that seems like such a short timeline.
    I also wanted to throw in a question about AFRICOM.
    Mr. Carson. Let me just say on that, neither the current 
President nor Prime Minister will be candidates in the 
election.
    Ms. Bass. Okay.
    Mr. Carson. I point out that Mali was scheduled to have 
democratic elections in April about a month before the coup 
d'etat. There are a number of individuals who would be 
candidates for the presidency. There are formed political 
parties. And the one thing I think is important to remember is 
that although Mali is the size of both Texas and California 
combined, some 90 percent of all Malians live in the southern 
part of the country and have not been affected at all by the 
military operations in the north.
    The Tuaregs and others, the Malian Arabs comprise only 10 
percent of the population, and there are ways now that major 
cities have been recaptured to hold elections and also to hold 
elections in refugee camps and among displaced people. So it 
should not be an impediment. They can do it.
    Ms. Bass. Thank you.
    Chairman Royce. Mr. Chabot.
    Mr. Chabot. Thank you, Mr. Chairman. The U.S. has put a lot 
of resources into this region through counterterrorism programs 
including training security forces and attempting to secure 
porous borders and promoting democracy. Arguably, these haven't 
gone so well. Overall, the amount of aid to this region with a 
particular focus on Mali has reached $1 billion over the last 7 
years.
    We've also heard testimony that the level of support has 
actually been inadequate and not commensurate with the threat.
    However, it seems, as usual, the U.S. bears most of the 
burden on these initiatives and, in some cases, because world 
leaders are not as well equipped or don't want to get involved 
and thus take a back seat, expecting the U.S. to take the lead. 
Now in this case, we welcome France's initiative to take action 
so quickly. Regardless, the U.S. is expected to supply cargo 
planes, surveillance aircraft, airlift support, and other 
things. The U.S. also recently pledged to contribute 
approximately $96 million to support the African-led 
international support mission in Mali, as you had indicated Mr. 
Ambassador, while China and India together contributed $1 
million. So $96 million from the U.S., $1 million from China 
and India, and the African-led force expects another $50 
million to $60 million in U.S. support. In this time of 
economic constraints and sequestration, if I might add, we've 
got to look at every U.S. taxpayer dollar being spent.
    Are other nations planning to provide assistance to this 
operation? What are we doing to see that other countries take a 
bigger assistance role, especially financial-wise, and share 
the burden to build up the capacity of regional forces? China 
has been a big player in the region for many years, so why 
isn't China, for example, offering more assistance? One million 
dollars from China and India, compared to $96 million from the 
U.S. I'd ask either one to address that particular issue.
    Mr. Carson. Congressman, thank you. I would say that there 
are others in the international community who have stepped up 
to the plate, particularly our colleagues in the European 
community. They have initially pledged some <greek-l>$ deg.50 
million euro. They have also agreed to put on the ground a 
European military training mission which has the purpose of 
retraining, rebuilding, and rehabilitating the Malian military.
    I would also add that across Europe from the U.K. to 
Denmark to Germany to Canada, all of those countries have also 
come to the assistance of the French and have provided 
transport aircraft and assistance as called upon. We are not 
out there alone with the French. Others are there as well.
    Mr. Chabot. What about China, in particular, though? And 
India? First and second most populous nations on earth and 
growing economies and everything, yet China especially does 
not--well, you don't have to answer that, but it's a question 
that I think we should emphasize more and more.
    Let me mention one other thing because I'm going to run out 
of time. As Chairman Royce had mentioned in his opening 
remarks, Mali boasts some of the richest cultural heritage in 
the world today. It's been a center of religious mysticism, its 
mosques and mausoleums have been named world historical sites. 
Its tombs of Muslim saints and warriors date to the 15th 
century, and its libraries hold 700,000 ancient manuscripts. 
This heritage has been systematically targeted by the Islamists 
laying claim for the country's northern towns. Malians were 
forbidden to worship as they did before. They were restricted 
from playing music, an integral part of society there. Limbs, 
as the chairman mentioned, have been hacked off. These Malians 
were specifically targeted because their practice of Islam was 
too liberal for these extremists.
    Ambassador Carson, you talked and emphasized, I think, 
Mali's lack of development, but what about this radical 
ideology being imported from outside the region as a source of 
their woes? Your formula had emphasized elections and 
development and national reconciliation. How do we make sure 
that we're pushing back against this violent ideology as well? 
It seems that's really what the average Malian is concerned and 
worried about.
    Mr. Carson. Thank you. Two quick comments on that. First, 
we here in Washington and in the administration were deeply, 
deeply shocked and appalled by the destruction of historical 
manuscripts that date back over several centuries that were in 
Timbuktu. In the past, we have put money into the preservation 
of those documents through our Ambassadors Cultural Fund.
    The second thing that I would say is that we recognize that 
radicalism is a problem and we do have programs that are 
jointly run by the State Department, USAID, and our colleagues 
in the Defense Department to counter violent extremism, 
reaching out to vulnerable communities and vulnerable 
population groups especially young men who are unemployed and 
who could be susceptible to a radical message and agenda.
    Mr. Chabot. Thank you. Thank you, Mr. Chairman.
    Chairman Royce. Mr. Cicilline.
    Mr. Cicilline. Thank you, Mr. Chairman. Thank you, 
Ambassador Carson and Assistant Deputy Secretary Dory for your 
testimony today.
    Ambassador Carson, I'd like to follow up a little bit on 
Congressman Bass's questions about the likely political future 
in Mali and ask you to comment on. It seems as if the presence 
of these extremist organizations, these terrorist organizations 
is really happening at the ground level in the delivery of 
services and responding to economic conditions on the ground. 
I'm wondering whether you have an opinion as to whether or not 
that terrorist organization will be reflected in the outcome of 
the elections in any way.
    Secondly, what is the path for some reconciliation with the 
separatist Tuaregs in the north, if there is one and whether or 
not since so much of the political legitimacy is going to be 
the outcome of this election? Do we have a sense of who is 
likely to prevail in those elections and what the relationship 
might be going forward with the United States?
    Mr. Carson. Congressman, thank you. I think AQIM does not 
have the popular support across northern Mali, and I do not 
think that they will gain in any way from democracy and 
elections. As I say, people like Mokhtar Belmokhtar and the 
leadership of AQIM are actually not Malian. They're Algerian. 
They're Mauritanians. And those individuals don't have the kind 
of popular following that will allow them to become elected 
officials.
    Second, I would say that the overwhelming welcome that the 
French troops received across northern Mali is a reflection of 
the fact that they too felt deeply oppressed by what AQIM was 
doing to impose Sharia law: Cutting off hands and limbs, and 
banning things like cigarettes, beer, and television. These are 
things that did not sit well with the Malian community.
    Third, I would say is that there have been formed political 
parties. There are political leaders who will contest 
elections, and I believe that those elections can go well. 
Prior to March of last year, Mali had had 20 years of democracy 
and had had several Presidential and parliamentary elections 
that had gone well. I think this can be restored. There is the 
democratic tradition that we want to help to restore. 
Reconciliation can take place.
    Again, I'll refer back to my colleague who made a slight 
reference to a point that I think has to be underscored. In 
Bamako, many people had a different perception than we did of 
what the threat in the north was. We have always been deeply 
concerned about the AQIM threat, about the jihadists and the 
old GSPC people who came down from Algeria. In Mali, the 
government in Bamako through the threat was the age-old 
traditional enemy, the Tuareg. The Tuareg have had legitimate 
grievances that go back to the 1860s, 1870s, and 1880s, and 
they're about political representation, about a fair share of 
the development projects that are there. So there has to be a 
solution overall that accommodates their political grievances 
as long as they renounce violence, territorial secession, and 
any jihadist tendencies.
    Mr. Cicilline. Thank you. Ambassador, I'm also going to ask 
you to respond in writing--because my time is running out--to 
two other issues, and I'd ask the Deputy Secretary to do that 
as well. One is the current capabilities of this terrorist 
organization in light of the French military action. What's 
your assessment of their capabilities today?
    And the second issue which I would like you to address is: 
General Ham raised concerns that the Malian army had not spent 
sufficient time focused on human rights and rule of law. I'm 
interested to know what we're doing to be sure that that is 
corrected and your assessment of what the current deployment of 
West African troops is on that issue of human rights and rule 
of law and whether you're satisfied that we are engaging or 
other troops from other countries are being engaged with 
sufficient sensitivity to important human rights and rule of 
law issues. So I could invite written responses on that. And 
again, thank you for your testimony.
    Mr. Carson. I'll take the first part and let my colleague 
take the second part. I think AQIM has been degraded, but not 
defeated and we should expect asymmetrical activities rather 
than face-to-face combat.
    Chairman Royce. I think we can do that in writing. I think 
that will satisfy the member.
    Mr. Carson. Okay.
    [Responses follow:]
Written Response Received from the Honorable Johnnie Carson to Question 
       Asked During the Hearing by the Honorable David Cicilline
    Al-Qaeda in the Islamic Maghreb (AQIM) has been degraded, but not 
defeated. AQIM, the Movement for Unity and Jihad in West Africa 
(MUJAO), and affiliated groups continue to pose serious challenges to 
our interests in Mali, especially our efforts to promote democracy, 
civilian security, economic prosperity and regional stability and 
cooperation. These extremist groups' goals and methods remain 
antithetical to Malian populations, leaving the extremists with little 
room to expand over the long term. These groups exploited the political 
chaos created by the northern rebellion and coup d'etat to expand their 
safe haven in the north and impose their extremist ideology on local 
populations. Although they have been largely pushed out of key towns in 
northern Mali, they still have the ability to launch asymmetric 
attacks, as we have seen in the recent violence in Gao and Kidal.
    Although the coup d'etat and subsequent division of the country 
have hampered Malian, regional and international counter-terrorism 
efforts in the Sahel, we continue to enhance our work with Mali's 
neighbors to increase their capacity to secure their borders, disrupt 
AQIM supply lines, and contain the spread of extremist groups. The 
Trans Sahara Counterterrorism Partnership (TSCTP) has bolstered 
capacity, fostered regional cooperation and combated violent extremism 
in the region. Lasting resolution to the terrorist threat will require 
that the countries in the Sahel develop the capacity to counter this 
threat, along with other transnational threats such as drug smuggling 
and human trafficking. In addition, we believe it is critical to 
enhance the stability, governance, economic prospects and inclusivity 
of nations in the region in order to undermine the foundation of 
extremist philosophies. This is only possible in an environment that is 
secure enough for programs that work to achieve these objectives can 
operate. Although such an environment has been lacking in northern 
Mali, we are confident that extremism in this region can ultimately be 
defeated.
                               __________
Written Response Received from Ms. Amanda Dory to Question Asked During 
              the Hearing by the Honorable David Cicilline
    General Ham has noted that we didn't pay ``requisite attention'' to 
military professionalism, civil-military relations, and the rule of 
law. A key word there is ``requisite''--how do we adjust the quantity 
and/or quality of our focus on these critical topics? What are 
appropriate measures of effectiveness? And at the most fundamental 
level, how can outsiders best support the forward progress of democracy 
and the appropriate role for militaries on the African continent? With 
all that said, each military training mission that we undertake with 
our partner militaries does include human rights training as a part of 
the curriculum.
    Looking back, DoD has identified areas for improvement in our 
partnerships with foreign militaries. These include: additional 
engagement at an institutional level in addition to operational 
training (e.g. the Defense Institute Reform Initiative and the Ministry 
of Defense Advisors Program) as well as an increased focus on building 
political will and a shared understanding of the threat.
    Many of the West African countries deploying to Mali have already 
received training in proper military conduct from the United States and 
will receive additional training either from us or from European 
partners. That training is not a guarantee of appropriate behavior, but 
we believe that appropriate efforts are being taken to encourage 
professional military conduct.

    Chairman Royce. We're going to go to Mr. Poe.
    Mr. Poe. Thank you, Mr. Chairman. My understanding is that 
Qatar delivered weapons to Libya probably with the green light 
of the United States before Ghadafi failed. After Ghadafi met 
his maker, some of those weapons were sent into Algeria. 
Belmokhtar even said in a press statement that he used some of 
his money to buy those weapons. According to General Ham, his 
group is the richest of all the al-Qaeda operatives because 
they have $50 million they've gotten from kidnappings and 
ransoms primarily of Europeans and tourists.
    My question is do we have any understanding that the 
weapons used by Belmokhtar or other al-Qaeda groups had that 
traffic flow from Qatar, Libya and then these al-Qaeda 
operatives?
    Do you want to weigh in on that, Ms. Dory?
    Ms. Dory. Sure. I'd be glad to. I can't specifically say 
what the connection would or wouldn't be. I think what we do 
know is a tremendous amount of weapons trafficking in the 
region, much of it related to the access to weapons in Libya 
after Ghadafi's fall, they have moved in all different 
directions. It's very difficult to track for the regional 
states themselves in terms of the vast distances we've referred 
to already, and the limited amount of border security 
capabilities they have. And if you layer on top of that the 
limits to the amount of intelligence focus and assets that we 
have in that area, so you can--the theory is clear in terms of 
the connection of the weapons and other traffic moving through 
the region. But whether there's a direct connection back to UAE 
weapons, I cannot tell you.
    Mr. Poe. You wouldn't argue with--or would you?--
Belmokhtar's statement that he bought weapons for AQIM that 
came into Libya. Would you argue with that statement?
    Ms. Dory. I would not argue with his statement.
    Mr. Poe. I have two other questions. I'll try to get to 
them. As of right now, today, February 14, starting with the 
Embassy attack in Benghazi, is there anybody anywhere that we 
have held or believe to be accountable for those actions, and 
are they in custody some place?
    Ms. Dory, do you know that the bad guys have been 
apprehended?
    Ms. Dory. I am not aware of the current status of the FBI 
investigation in terms of who is in custody.
    Mr. Poe. So you don't know that there is anybody?
    Ms. Dory. I do not know.
    Mr. Poe. Mr. Ambassador, did you want to weigh in on that?
    Mr. Carson. The response is the same. I don't have any 
information that I can provide you. I'll get some if we've got 
it.
    Mr. Poe. I would accept your statement you'll get us some.
    [Response follows:]
Written Response Received from the Honorable Johnnie Carson to Question 
           Asked During the Hearing by the Honorable Ted Poe
    The State Department defers to the FBI on any updates regarding 
their ongoing investigation into the September 11, 2012 attacks on our 
facilities in Benghazi.

    Mr. Poe. The other comment or question I had is about AQIM, 
foreign terrorist--labeled foreign terrorist organization. They 
seem to roam Africa at will. Borders are poor.
    But Ms. Dory, you made the comment that you don't think 
that they are a threat to the American homeland. I know the 
Ambassador made a comment that they're kind of on the way down, 
but tell me what you see the future holds for AQIM?
    Ms. Dory. I think the future for AQIM depends on how 
sustained the intention of the international community is to 
addressing the problem set and continuing to dedicate resources 
to putting pressure on the organization. As we've seen, the 
French intervention has certainly set them back tremendously. 
They no longer hold territory, key cities, in the northern part 
of Mali. They are now on the run. They have moved into 
different parts of Mali that are less beneficial in terms of 
ability to hold terrain, more difficult terrain.
    I think it will depend on the continuation of French 
operations going forward, the ability to rebuild the Malian 
defense forces to take action within their own territory. It 
also depends on the neighbors and the actions that they take. 
We are helping----
    Mr. Poe. Let me interrupt you real quick. Do we know the 
policy of the French? Is it France's policy that they're going 
to root them out and get them or do we know what their long-
term goal is with AQIM and what they're doing in Mali?
    Ms. Dory. The French strategic approach at this point is to 
in response to the actions taken by terrorist organizations 
moving south in Mali they took immediate action and that's what 
we've seen the last month. They're now looking to have African 
partners, the AFISMA forces and Malians, to step forward and 
help stabilize in the key population centers and the----
    Mr. Poe. Excuse me. If you have anything else to add, 
please put it in writing. I appreciate it, Mr. Chairman.
    Chairman Royce. Mr. Grayson.
    Mr. Grayson. Thank you very much, Mr. Chairman.
    Ambassador, your testimony alluded to the grievances of the 
northern populations including the Tuareg. And I'd like to ask 
you some true or false questions in that regard.
    The civil war in Mali started as a Tuareg tribal revolt, 
sort of an independence movement. Is that true or false?
    Mr. Carson. I never like to do true and false. I would say 
partially correct.
    Mr. Grayson. Partially correct. I'll go with that. Now the 
Tuareg independence movement, that actually dates back for 
decades, true or false?
    Mr. Carson. Elements of the Tuareg community have had 
desire for greater autonomy for many years.
    Mr. Grayson. All right, and the Tuaregs actually represent 
a majority in some parts of northeast Mali, particularly the 
desert areas. True or false?
    Mr. Carson. The Tuareg are a minority within a minority. 
They are not the dominant group in northern Mali. They are the 
most publicized group. They are also the group that's willing 
to stand up and fight. The north of Mali has Berber. They have 
Malian Arabs, Berber. They have Songhag and Fula.
    Mr. Grayson. Now the Tuaregs have never associated 
themselves as a tribal group with al-Qaeda or any other 
terrorist group. True or false?
    Mr. Carson. The grievances of the Tuareg and the political 
and economic aspirations of the Tuareg go back to, as I said, 
back to 1870, 1880, when the French came in direct contact with 
them. I don't think al-Qaeda was around in those days.
    Mr. Grayson. All right, now you mentioned that there's an 
interesting mix of people in northern Mali and northeast Mali. 
And in fact, it is true that the Tuaregs have been 
discriminated against by other Mali groups including up to mass 
killings of Tuaregs. Is that a fair statement?
    Mr. Carson. I think that there's a lot of truth to that.
    Mr. Grayson. All right, and in fact, the Tuaregs and the 
AQIM are mortal enemies. Isn't that true?
    Mr. Carson. Let me just say they have had different 
historical and political trajectories. As I said before, the 
Tuareg have not traditionally been jihadists or radical 
Muslims. They have, like many of the people across the Sahel in 
Mali, going all the way from Senegal to Niger and Burkina, have 
been moderate Muslims who have not been jihadists or Salafists.
    Mr. Grayson. But in fact, even in the past 12 months we've 
seen Tuaregs and AQIM forces fight each other to the death.
    Mr. Carson. They have come together, and they've also split 
apart, and they've come together. As I've said, one of the 
things we've been trying to do and to underscore is that we 
don't want to have these linkages created. I think both groups 
found at one point it was opportunistic to work together, but I 
think many of the Tuaregs did not find some of the things that 
were being done by AQIM as acceptable.
    Mr. Grayson. You mean the torture?
    Mr. Carson. Sharia law has never been practiced in northern 
Mali. Cutting off hands and limbs has been anathema.
    Mr. Grayson. You mean to the Tuaregs and to other 
reasonable people?
    Mr. Carson. To Tuaregs and other communities who are also 
Muslim.
    Mr. Grayson. And the Tuaregs have sometimes been the 
victims of that, correct?
    Mr. Carson. I think in terms of the internal and ethnic 
conflicts, they have been the victims of political violence, 
but they also have inflicted political violence as well.
    Mr. Grayson. Now whether the Tuaregs have independence or 
not really has no impact on us here in the United States, 
right? It's no threat to us in the United States if the Tuaregs 
were independent, correct?
    Mr. Carson. Let me just say that we support the territorial 
integrity of Mali. We do not support the dismemberment or the 
vulcanization of that country. We do not support the 
aspirations of some Tuareg to have an independent state of 
Azawad. We support the territorial integrity of that country.
    Mr. Grayson. I understand that, but the question was if 
there were such a state, it would be more no more of a threat 
to us than south Sudan is to us today, correct?
    Mr. Carson. Again, it's hypothetical. I don't even want to 
try and answer what I can't see.
    Mr. Grayson. Thank you, Mr. Chairman.
    Chairman Royce. Thank you. We will go now to Mr. Marino.
    Mr. Marino. Thank you, Chairman. As a prosecutor, I prefer 
leading questions with short answers. So I have two questions 
here and I'm going to ask each of you to respond.
    Madam Deputy Assistant Secretary, I'd like to start with 
you, if you would, please? The Ambassador said we have no 
intentions for boots on the ground in Mali, and I take him at 
his word. However, the best intentions often head south at warp 
speed. How confident are you about the degree of support we 
will get from the Mali people?
    And question number two, and equally important, what is the 
probability that the U.S. wades deeper into this, and where are 
we when the French bail out?
    Ms. Dory. So your first question, sir, was how we would be 
received by Malians. You said we would not have boots on the 
ground, but then you said how would we be received by the 
Malians?
    Mr. Marino. Yes, how would we be?
    Ms. Dory. Hypothetically, again, I said the same thing in 
my statement. We do not envision U.S. combat forces on the 
ground in Mali. I do think the reception of the French in Mali 
is instructive in terms of the welcome that French forces have 
received, in terms of the overwhelming reception the French 
President received when he visited Mali, and in terms of the 
liberation of the northern cities and their support for the 
assistance rendered in ejecting the extremists from the cities 
in north Mali.
    Mr. Marino. And what about the probability of us wading 
deeper into this disaster in Mali, and what happens when the 
French bail out?
    Ms. Dory. I wouldn't want to give a probability in terms of 
a crystal ball what our future support will entail. I think 
what we can say is that we are strongly supporting the French 
at this point and we are strongly supporting African partners 
in terms of their ability to deploy forces into Mali and their 
ability to employ them going forward.
    Mr. Marino. Mr. Ambassador, do you have a response?
    Mr. Carson. I'm tempted to say, Mr. Marino, that I am not a 
lawyer.
    Mr. Marino. I'm a prosecutor. I draw a distinction there. 
We talk about hypotheticals, and this is more of a statement 
than a question, so I'm not looking for a response unless you 
want to. I just hope and pray that as we go through this 
process in Mali, and any other country, that we try to 
anticipate as much as possible what the ramifications would be, 
and what the negative aspects would be down the road. I think 
sometimes we get caught up in the emotional part of situations 
like this and really do not pragmatically sit down and say what 
happens if? So just please bear that in mind. I yield back my 
time. Thank you.
    Chairman Royce. Thank you, Mr. Marino. Now we go to Mr. 
Vargas.
    Mr. Vargas. Mr. Chairman, I also want to thank you for 
putting this hearing together so quickly. I appreciate it. I 
think we all do. I think if there was any surprise to the 
international community it was how swiftly and effectively the 
French intervened. I mean it was pretty amazing how quickly 
they decided to put boots on the ground and to intervene and do 
so effectively. In fact, I'm 51 years old and I can't recall a 
time when I could say that the French intervened swiftly and 
effectively. And yet, they have. And of course, they're well 
received by the population there. I appreciate that very much.
    I would ask this and some statements were made about our 
assistance to them. I don't want to put words in anyone's 
mouth, but that we have done basically all that we could. Have 
they asked for anything that we have not assisted them in?
    Ms. Dory. No.
    Mr. Vargas. Is there any assistance that they would ask 
for? I know drones were brought up and I know that we do have a 
reluctance to put boots on the ground, but we do have 
capabilities now that other nations do not have. If they were 
to ask for assistance from our drone capability, would we be 
willing to assist them in that?
    Ms. Dory. We are providing very full support across all the 
different elements of intelligence sharing.
    Mr. Vargas. I guess I would ask not in intelligence 
sharing, but actually as a weapon, not so much to gather 
intelligence, but to actually eliminate the threat to either 
French troops or to civilian populations and use it as an 
effective weapon, not simply to gather intelligence. Would we 
be willing to share that capability with them?
    Ms. Dory. Those are not the types of platforms that we have 
in the theater. The intelligence surveillance for constant 
assets that we have are just that. They are focused on 
intelligence.
    Mr. Vargas. There was an issue that was brought up earlier. 
Maybe you could answer this that there was a conflict, 
supposedly, between the State Department and the Defense 
Department here that there was an awkwardness, maybe lawyers in 
between. So we weren't acting as expeditiously as we possibly 
could. Is there something to that that notion? That we were 
delayed in any way because of maybe a lack of coordination 
between the Defense Department and Department of State?
    Mr. Carson. I think the level of inter-agency collaboration 
between State and Defense with respect to Mali has been close, 
continuous, tight, and uniform. And we have worked together on 
this issue in a very collaborative and, I think, in a very 
aggressive fashion.
    Ms. Dory. I would second that.
    Mr. Vargas. I guess I would just conclude by saying I think 
this has been a very successful operation. Certainly to applaud 
the French. I think that from all I can tell we were with them 
as allies and continue to be allies and help them in any way 
that we possibly can.
    I do think that al-Qaeda is a threat around the world and I 
do think that when other nations like France and the French 
take the lead, we ought to applaud them. Maybe we can get some 
French fries back in this building. But in fact, that was one 
of the things that was pretty interesting about this whole 
thing. I think there is a notion that the French, in fact, 
quotes that the French are going to bail out. So far they seem 
to have been quite effective and quite aggressive. I'm not sure 
that we would have moved as quickly as they did, but they did 
it, I think, fantastically and we should applaud them for that.
    I yield back my time, Mr. Chairman.
    Chairman Royce. Thank you, and Mr. Ambassador, that was 
good to hear, Ambassador Carson. That's not what we read in the 
press or understood from some quarters who talked to us about 
this, but it's good to know that Department of Defense and 
Department of State are working together to resolve these 
problems quickly and that some of the hurdles maybe that were 
faced because of the legalistic barriers have been overcome.
    Let's go now to Mr. Meadows.
    Mr. Meadows. Thank you, Mr. Chairman. And thank you for 
coming to testify. As we've heard your testimony and obviously 
looked at some of your previous testimony, there are four 
components as you see it that must happen at the same time. My 
question to each one of you is as we start to look at that, 
taking the lead, obviously, the French have taken the lead in 
some components of that, but how do we make sure that we have 
all of those issues addressed and that we're just not throwing 
money at a particular situation, whether it's humanitarian 
relief or whether it's intervention, boots on the ground, 
whatever the case may be? Who is going to manage that process, 
and how best can we address that?
    Mr. Carson. Let me say that that is the work of our 
diplomatic establishment. I think that we have to remain 
diplomatically engaged on a bilateral basis with the Malian 
Government. We have to remain diplomatically engaged on a 
multilateral basis with our colleagues in New York, at the 
U.N., at the Security Council, and also with our European 
colleagues, particularly the French and the European Union, who 
take the greatest amount of interest.
    We have to, to the greatest extent possible, have a shared 
set of outcomes that we want to achieve and we need to be 
consistent in pushing those forward. But it's not all the time 
public work, and it's not all the time visible work but it's 
that continuing diplomatic engagement at every level, not only 
in terms of what we do at State, but also our colleagues in the 
military as they interact with their military colleagues in 
Africa and Europe as well.
    Mr. Meadows. So you would say more the State Department 
taking more the diplomatic lead in this than DoD?
    Mr. Carson. At this juncture I would say yes, because this 
is--the problems in Mali will not and cannot be exclusively 
defined as security and terrorist problems, and there must be 
solutions beyond the military and security and terrorist 
framework in order to make Mali a strong and stable country 
again. So there have to be both military and political 
solutions.
    I think the French have advanced the agenda on the anti-
terrorist side and the security side. We have to advance the 
agenda on the political, diplomatic, and economic and 
development side. And also the reconciliation side between 
Tuaregs and those in the south.
    Mr. Meadows. Ms. Dory, would you agree?
    Ms. Dory. I would agree. I would add to what Ambassador 
Carson is discussing, that we have the State Department clearly 
leading the overall foreign policy direction, that we are 
working closely together at the strategic and policy level here 
in a very robust inter-agency process. We do so at the 
operational level in terms of Africa Command and the robust 
State Department participation on staff there and then the same 
thing repeats at the--in DoD we would call it the tactical 
level, but at the Embassy level in terms of the country team, 
the participation by attaches and supplemented planners who are 
working alongside the State Department colleagues. So it's 
happening at all three levels very robustly.
    Mr. Meadows. And both of you have put an emphasis in terms 
of democratic elections and the critical nature of both of 
those, but without a respect for the rule of law. We've seen in 
other regions that democratic elections don't necessarily 
translate into a sound government. How does Mali differ in that 
regard?
    Mr. Carson. Elections are only one step in the democratic 
process. Strengthening democratic institutions is critical, 
creating political will, political space and political----
    Mr. Meadows. Who does that? Who does that?
    Mr. Carson. Again, I think we engage as diplomats with 
government and political elites and political power, political 
parties and we encourage our other democratic partners around 
the world to also do so in a very active fashion.
    Mr. Meadows. So do we have other success stories where we 
can see where that's actually happened in the region?
    Mr. Carson. I think we've got lots of success stories out 
there. Liberia, Sierra Leone, Somalia, Cote d'Ivoire, and 
Niger. The number is quite substantial. I think there is a 
positive trajectory for democracy and a positive trajectory for 
stability. These are challenges, but there are also lots of 
successes.
    Mr. Meadows. Thank you both.
    Chairman Royce. Mr. Castro?
    Mr. Castro. Thank you, Chairman. I want to say first of all 
thank you to Ambassador Carson and to Ms. Dory for the work 
that each of you do on behalf of the nation on these issues.
    I have a question regarding AQIM and its relationship with 
core al-Qaeda. Earlier, we heard Mr. Rohrabacher ask or suggest 
that we may be superimposing certain labels on these terrorist 
groups. How do we go about distinguishing whether they have a 
strong and true connection to core al-Qaeda or whether they are 
simply imposters, so to speak, who are just adopting that brand 
name?
    Mr. Carson. I may want to come back to you with a response 
from our colleagues in the intelligence community on this and 
how they define them, but there is a linkage between AQIM and 
core al-Qaeda, but I would rather have them define the strength 
of this relationship.
    [Response follows:]
Written Response Received from the Honorable Johnnie Carson to Question 
        Asked During the Hearing by the Honorable Joaquin Castro
    Al-Qaeda in the Lands of the Islamic Maghreb (AQIM) originated as 
an armed Islamist resistance movement to the secular Algerian 
government. The Groupe Islamique Arme (GIA) was formed after Algeria's 
military regime canceled the second round of parliamentary elections in 
1992 when it seemed that the Islamic Salvation Front, a coalition of 
Islamist militants and moderates, might win and take power. In 1998, 
the Salafist Group for Preaching and Combat (GSPC) was formed, 
declaring its independence from the GIA, due to the GIA's brutal 
tactics against civilians. The GSPC declared its allegiance to al-Qaeda 
as early as 2003, but al-Qaeda senior leader Ayman al-Zawahiri did not 
officially approve GSPC's merger with al-Qaeda until September 11, 
2006. Zawahiri's videotaped acceptance of the merger marked the group's 
public re-branding as an al-Qaeda affiliate. The group officially 
changed its name from GSPC to ``Al Qaida in the Lands of the Islamic 
Maghreb'' in January 2007.
    In a July 2008 interview with the New York Times, the Emir of AQIM 
Abdemalek Droukdal, who also had been the emir of GSPC since 2004, 
stated that ``Our general goals are the same goals of Al Qaeda the 
mother.'' Since its merger with al-Qaeda, some of AQIM's attacks have 
reflected core AQ goals. In 2007, AQIM bombed the UN headquarters 
building in Algiers and the Algerian Constitutional Court, killing 60 
people. AQIM also has conducted kidnap for ransom operations against 
Western citizens and participated in the most recent Tuareg rebellion 
in northern Mali.

    Mr. Castro. Sure. That's no problem. Also you all have 
spoken about, I think you specifically, said that there are 
certain conditions in a nation that make it more susceptible to 
terrorism activity, including poor governance and poor 
development. I don't think we've covered that yet. Can you give 
a description of the poverty and desperation that exists in 
this nation and others in that region?
    Mr. Carson. I don't know the precise number where Mali 
falls on the U.N. human rights development index. And I'll find 
that number out for you.
    Mr. Castro. Sure.
    [Response follows:]
Written Response Received from the Honorable Johnnie Carson to Question 
        Asked During the Hearing by the Honorable Joaquin Castro
    Mali is among the 25 poorest countries in the world as measured by 
the U.N. Human Development Index (HDI). The HDI is a composite that 
measures the average achievement of a country in three basic human 
dimensions of human development--a long and healthy life, knowledge, 
and a decent standard of living. Of the 187 countries ranked in the 
HDI, Mali placed at 174th. Its neighbors Niger, Burkina Faso, Cote 
d'Ivoire, and Mauritania respectively placed 186th, 181st, 170th, and 
159th.

    Mr. Carson. But I'm almost certain that it ranks probably 
in the bottom 10 to 15 percent of the poorest countries in the 
world with the per capita income of the country probably being 
no more than $200 to $300 a year.
    Mr. Castro. But you would agree generally the better the 
standard of living, the harder it is for these terrorist 
organizations to coax folks to join their forces?
    Mr. Carson. Yes, sir. And I would also add one other thing. 
Political engagement and the fact that people believe they have 
a stake in the country, the government, and that the government 
has a stake in delivering services to them. In northern Mali, 
the big problem that precedes many years before al-Qaeda is 
that the Tuaregs have felt that they've gotten the short end of 
the development stick: No roads, no schools, no clinics, and 
that promises made by the central government have not been 
lived up to. These are political grievances that also have an 
economic element to them as well.
    Mr. Castro. And then my final question, do you have any 
insight into the goals and future military presence of French 
forces?
    Ms. Dory. We are in constant discussions with the French at 
all different levels at this point. They are in the midst of 
conducting on-going combat operations while also looking ahead 
to the transition to the next phase as we've talked a little 
bit today. The stand up and force employment of the AFISMA 
force and then the eventual possibility of a U.N. peacekeeping 
operation. So we are in very robust dialogue with the French at 
senior leader levels, at operator levels about how they see 
this unfolding, conversations about when different transitions 
will happen.
    It's very important for us to understand their intentions 
and vice versa and to connect with the on-going process of 
developing the AFISMA force so it's available to be employed. 
The French are certainly not going to lose the gains that have 
been accomplished over the last month or so by a hasty 
transition to a force that's unprepared to stabilize the 
government.
    Mr. Castro. And Representative Vargas asked you about 
whether we had ever said no to a request to our allies, the 
French, and your reply was no, that we haven't. So I want to 
say thank you very much for that. I yield back.
    Chairman Royce. Mr. Connolly.
    Mr. Connolly. Thank you, Mr. Chairman, and welcome, both of 
you.
    Mr. Ambassador, in your previous responses to questions 
from my colleagues, did I understand you to say that we're all 
of one mind in the United States Government with respect to how 
we should respond to the terrorist threat in northern Africa or 
in Africa?
    Mr. Carson. I was talking about Mali and the specificity of 
the question about whether there was collaboration and 
cooperation between DoD and State. And I said that the 
collaboration and cooperation was very good and synergistic.
    Mr. Connolly. I'm looking at an article, Mr. Ambassador, 
from the Washington Post, published exactly 10 days ago. It 
quotes Charles Wald, the former Four Star Air Force General in 
charge of operations. He's quite explicit about his critique of 
various folks including Vicki Huddleston, the U.S. Ambassador 
to Mali at the time, about conflicts and their approach to 
terrorism or figures associated with terrorism including 
Belmokhtar and what to do about him. Are you aware of that 
article, published 10 days ago?
    Mr. Carson. I am aware of it.
    Mr. Connolly. And do you find it accurate?
    Mr. Carson. I think it's out of context. I think the most 
important thing to remember there is that I think General Wald, 
who was the Deputy Commander of EUCOM, and Ambassador 
Huddleston were there, I think, probably 15 years ago. Much has 
changed. I think one has to look at the context in which they 
were talking and operating.
    Mr. Connolly. So this article is describing something from 
your point of view that's way in the past?
    Mr. Carson. It's historical and it is dated. I think that 
one has to look at the context in which they were operating at 
the time.
    Mr. Connolly. Well, I just, I mean, ancient history, it 
quotes a 2008 GAO report, talking about the lack of 
comprehensive, integrated strategy among the Pentagon, the 
State Department, and USAID. You're saying that in the 
intervening 4 years that report is also now OBE?
    Mr. Carson. Sir, I'm not aware of that report and so I 
can't comment on it. I'm not aware of it.
    Mr. Connolly. Well, in light of your testimony, whether 
you're aware of the report or not, you obviously would disagree 
with that characterization, at least as it would apply in 
today's context?
    Mr. Carson. Yes, because I think that as we both said here 
this morning, there is a robust inter-agency process that 
brings us together, both in a formal setting, but we also talk 
quite frequently. I meet with and see very frequently General 
Ham from AFRICOM. We travel together from time to time. There's 
a robust amount of discussion and engagement there.
    Mr. Connolly. Obviously, you can understand the sensitivity 
here. The fight against terrorism is very much on our minds. 
Our country has been badly victimized by terrorism. Much of the 
locus of terrorist activity or planning, and even deployment of 
capability, is now shifted to the African environment. And it's 
imperative--vigorous debate is one thing, but fundamental 
disagreement about approach and what to do by way of response 
would be of great concern, obviously to those of us here, 
especially on this committee, and we would want to know about 
it. So thank you, Mr. Ambassador.
    Mr. Carson. Yes, I agree.
    Mr. Connolly. Ms. Dory, in the brief time I have left, 
could you tell us a little bit about our sense of the French 
military capability? Hollande was just there. Seemed to be 
announcing we're pulling out. It looked like the insurgents 
kind of melted away in front of French-Malian troops as soon as 
they appeared in Goa or Timbuktu or wherever it might be.
    What is the French capability vis-a-vis the insurgents? 
Should we worry that they just melted away, and they'll return 
once the occupation or the military advance ceases, and what is 
our sense of what the French military intention is at least in 
the short term if not the long term in Mali?
    Ms. Dory. Thank you. I would at the outset point out a 
comment made by Deputy Secretary Carter when he was recently 
visiting in France. He made the point there is a number that 
you can count on one hand of countries that are able to project 
power and employ force the way the French have in the past 
month, very impressive capability. And we have supported them 
along the way, as I've mentioned earlier, in terms of airlift, 
the refueling capability, intelligence, et cetera. So we feel 
very confident in French capabilities in the intervention in 
Mali.
    You're highlighting the conflict inevitably will shift. 
They have made the point and we agree that the initial 
intervention can sometimes be the easiest part and then things 
get very complicated. Ambassador Carson has highlighted the 
complexity of the situation. I think we see that as the 
extremist exit from population centers and will pursue a 
variety of asymmetric tactics going forward.
    So I don't think there's an ability to say mission complete 
any time soon. It's really entering into a new phase going 
forward. We're confident in French capabilities, and we will 
continue to assist them.
    Chairman Royce. Alan Lowenthal.
    Mr. Lowenthal. Thank you, Mr. Chair, and thank you for 
holding this important hearing.
    According to the congressional--and I think you've touched 
upon this and actually the Ambassador mentioned it a little bit 
in his earlier statements, that according to--but I want to 
kind of dig deeper to the period that really occurred before 
the coup. According to the Congressional Research Report 
entitled ``Crisis in Mali,'' there are indications that prior 
to the coup last March, the Malian public was growing 
increasingly resentful of perceived government corruption and 
cronyism, and the corruption arguably left Mali vulnerable to 
instability, especially what we've talked about in the north 
and to terrorist insurgency.
    The U.S. was one of the largest bilateral donors to Mali 
prior to the coup with eight programs focusing on food 
security, health, education, governance, counterterrorism and 
military professionalization. And yet, our efforts failed to 
create a stable, transparent government protective of 
humanitarian rights.
    The question I have is going forward how can we assess our 
intelligence and practices to ensure that the U.S. foreign aid 
is administered most appropriately and effectively? And really, 
another way of saying it is how do we better support strong 
democracies that truly serve the people of their country? And 
how do we make those distinctions?
    Mr. Carson. Thank you very much for the question. The short 
answer is that we take a hard look and reevaluate what went 
wrong as well. We try to calibrate our policies to both 
successes to replicate them and failures to prevent them. And 
so we do look.
    Again, I'm not aware of this report, ``Crisis in Mali,'' 
but I'm going to get a copy of it very quickly and read it and 
see what it says. Mali did have problems. It's an enormously 
poor country. It had only had democratic leadership for 20 
years. There was, in fact, a concern about growing corruption, 
and as I've pointed out, certainly people in the north and 
particularly Tuaregs felt that they were not getting the kinds 
of services from the central government that they thought they 
should be. So obviously therein is a problem that had not been 
sufficiently addressed.
    Mr. Lowenthal. Thank you. I yield my time back.
    Chairman Royce. And lastly, to the most patient, Lois 
Frankel.
    Ms. Frankel. Thank you, Mr. Chair, and you are very kind. 
I'm learning the tricks of going in and out, but I've been here 
the whole time. And it's been very interesting to hear the 
questions of my colleagues and your answers. Thank you very 
much for being here, and it's obvious that many of my 
colleagues have a very intricate familiarity with this issue.
    I'm going to ask a more basic, a ``living room'' question 
which is my constituents sitting in a living room if they were 
listening to this what they would ask basically which is--and 
you can answer this in a general term, which is what are the 
immediate and long-term consequences to the United States and/
or our allies if we just ignore Mali and the region and what's 
going on?
    Mr. Carson. We live in a very small and now very closely-
knit, global, and interconnected community, and absolutely 
nothing overseas, not even in places in Africa that are 
confused between the Pacific and Africa itself, can be 
dismissed as something that we should not be worried about. We 
have had, and I'll say this very quickly, enormous success in 
one part of the world where we turned out back on the issues of 
state failure--and we suffered the consequences of it--and that 
is Somalia.
    We walked away from Somalia in a relief effort after 
Blackhawk Down in 1993. And as a result, we saw Somalia as a 
country burn, and we saw its fragmentation and then we saw the 
impact on the region and we saw the impact on the global 
community. The global community impact was unprecedented levels 
of piracy along the Red Sea. The regional impact was the huge 
refugee crisis and food crisis. One hundred thousand, sorry, 
700,000 refugees in Kenya alone, and for us in the United 
States, it was the terrorist events of August 7, 1998, when we 
lost not one, but two Embassies in Nairobi through something 
called Al-Qaeda East Africa that we don't talk about very much 
these days because the foundation stones of it have been 
significantly weakened. But we forget that there was an Al-
Qaeda East Africa that also did in Nairobi what was a precursor 
to 9/11.
    So we do have to keep our eye on these things and when we 
turn our backs on them the international community turns their 
backs on them. But these are global.
    The French acted not only because they were concerned about 
what was happening in Mali and the region, but for one other 
reason and that is that the largest Malian community outside of 
Mali resides in France. And these are second and third 
generation Malians who were French men who can get on the plane 
as disgruntled youth, French youth, who happened to be black, 
whose families are Malian, and go back to Paris and potentially 
start to undermine French security as well.
    We can't turn our backs on it. It doesn't mean we have to 
lead the effort, but we must always be conscious about the 
effort and we must contribute wherever we can to its solution, 
which is why we work with the French and this is why we work 
with the Africans. We don't have to lead it, but we can support 
it because if we turn our back on it, it might become powerful 
enough like events in Somalia to come back and haunt us.
    Chairman Royce. I think Ambassador Carson expressed well 
our concern. I will add that over the years, over the last 6 
years, this particular franchise of al-Qaeda, in just the money 
that they raised by taking hostages and ransoming them, had 
raised $50 million, enough money to allow them to establish 
cells not only in France, but also in Switzerland, in Britain, 
Italy, and Germany. And if we look at the growth of this 
franchise, we begin to realize why the French took action and 
why the international community is appreciative of that. I 
think our Secretary of State put it well when she noted that we 
are in for a struggle, but it is a necessary struggle. We 
cannot permit northern Mali to become a safe haven. We've got 
to have a better strategy.
    This hearing today with Ambassador Carson and with the 
representative from the Department of Defense is an attempt to 
get the agencies to work more closely together and to work with 
us and Congress in order to implement a more effective 
strategy.
    I did want to recognize the Ambassador of Mali and the 
Ambassador of Niger who are with us and ask them to stand for a 
minute so that we might recognize you both. We thank you very 
much for your participation as well. We appreciate the work of 
the diplomatic corps.
    And with that we stand adjourned. We thank our witnesses 
very much.
    [Whereupon, at 12:29 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



               <F-dash>\\<careof><Rx><brit-pound>t<box>s\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


              <F-dash>\<Hoarfrost><acctof><careof>t<star> 
                     <F-dash><func.-of><Register>\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


        <F-dash>\<because><F-dash><Register>s<ellipse><ellipse>
 <Register><pound>s<ellipse>\<box><star>t<careof><Rx><box><Rx><o-times>
                   <Copyright>a<natural>s<pound><Rx>\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


        <F-dash>\<because><F-dash><Register>s<ellipse><ellipse>
 <Register><pound>s<ellipse>\<box><star>t<careof><Rx><box><Rx><o-times>
                 <triangle><pound><natural><variable>\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



        <F-dash>\<because><F-dash><Register>s<ellipse><ellipse>
          <dot-box><box><Rx><Rx><box><star><variable><o-times>
                   <Copyright>a<natural>s<pound><Rx>\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


        <F-dash>\<because><F-dash><Register>s<ellipse><ellipse>
   <n-iden-3><pound><box><o-times><Copyright>a<natural>s<pound><Rx>\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


        <F-dash>\<because><F-dash><Register>s<ellipse><ellipse>
  <n-iden-3><pound><box><o-times><triangle><pound><natural><variable>\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



        <F-dash>\<because><F-dash><Register>s<ellipse><ellipse>
      <H-dash><pound><script-l><star><careof><Rx><bullet><o-times>
                   <Copyright>a<natural>s<pound><Rx>\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
